App. 1
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

ULTRATEC, INC.,
Appellant
v.
CAPTIONCALL, LLC,
Appellee
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Intervenor
-----------------------------------------------------------------------

2019-1998, 2019-1999, 2019-2001, 2019-2002
-----------------------------------------------------------------------

Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2013-00540, IPR2013-00541, IPR2013-00544,
IPR2013-00545.
-----------------------------------------------------------------------

JUDGMENT
(Filed Oct. 14, 2020)
-----------------------------------------------------------------------

App. 2
KRISTIN GRAHAM NOEL, Quarles & Brady, LLP,
Madison, WI, argued for appellant. Also represented by
MARTHA JAHN SNYDER, ANTHONY ALLEN TOMASELLI.
PRATIK A. SHAH, Akin Gump Strauss Hauer & Feld
LLP, Washington, DC, argued for appellee. Also represented by Z.W. JULIUS CHEN, RACHEL J. ELSBY; MICHAEL
P. KAHN, CAITLIN ELIZABETH OLWELL, MICHAEL NASSER
PETEGORSKY, New York, NY; RUBEN H. MUNOZ,
Philadelphia, PA.
FRANCES LYNCH, Office of the Solicitor, United
States Patent and Trademark Office, Alexandria, VA,
argued for intervenor. Also represented by THOMAS W.
KRAUSE, FARHEENA YASMEEN RASHEED, MOLLY R.
SILFEN.
-----------------------------------------------------------------------

THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (PROST, Chief Judge, LOURIE and
MOORE, Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
October 14, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 3
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

ULTRATEC, INC.,
Appellant
v.
CAPTIONCALL, LLC,
Appellee
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Intervenor
-----------------------------------------------------------------------

2019-2000, 2019-2005, 2019-2006
-----------------------------------------------------------------------

Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2013-00542, IPR2013-00543, IPR2013-00550.
-----------------------------------------------------------------------

JUDGMENT
(Filed Oct. 14, 2020)
-----------------------------------------------------------------------

KRISTIN GRAHAM NOEL, Quarles & Brady, LLP,
Madison, WI, argued for appellant. Also represented by
MARTHA JAHN SNYDER, ANTHONY ALLEN TOMASELLI.

App. 4
PRATIK A. SHAH, Akin Gump Strauss Hauer & Feld
LLP, Washington, DC, argued for appellee. Also represented by Z.W. JULIUS CHEN, RACHEL J. ELSBY; MICHAEL
P. KAHN, CAITLIN ELIZABETH OLWELL, MICHAEL NASSER
PETEGORSKY, New York, NY; RUBEN H. MUNOZ,
Philadelphia, PA.
FRANCES LYNCH, Office of the Solicitor, United
States Patent and Trademark Office, Alexandria, VA,
argued for intervenor. Also represented by THOMAS W.
KRAUSE, FARHEENA YASMEEN RASHEED, MOLLY R.
SILFEN.
-----------------------------------------------------------------------

THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (PROST, Chief Judge, LOURIE and
MOORE, Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
October 14, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 5
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

ULTRATEC, INC.,
Appellant
v.
CAPTIONCALL, LLC,
Appellee
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Intervenor
-----------------------------------------------------------------------

2019-2003, 2019-2004
-----------------------------------------------------------------------

Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2013-00549, IPR2014-00780.
-----------------------------------------------------------------------

JUDGMENT
(Filed Oct. 14, 2020)
-----------------------------------------------------------------------

KRISTIN GRAHAM NOEL, Quarles & Brady, LLP,
Madison, WI, argued for appellant. Also represented by
MARTHA JAHN SNYDER, ANTHONY ALLEN TOMASELLI.

App. 6
PRATIK A. SHAH, Akin Gump Strauss Hauer & Feld
LLP, Washington, DC, argued for appellee. Also represented by Z.W. JULIUS CHEN, RACHEL J. ELSBY; MICHAEL
P. KAHN, CAITLIN ELIZABETH OLWELL, MICHAEL NASSER
PETEGORSKY, New York, NY; RUBEN H. MUNOZ,
Philadelphia, PA.
FRANCES LYNCH, Office of the Solicitor, United
States Patent and Trademark Office, Alexandria, VA,
argued for intervenor. Also represented by THOMAS W.
KRAUSE, FARHEENA YASMEEN RASHEED, MOLLY R.
SILFEN.
-----------------------------------------------------------------------

THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (PROST, Chief Judge, LOURIE and
MOORE, Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
October 14, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 7
Trials@uspto.gov
Tel: 571-272-7822

Paper 108
Entered: April 10, 2019

UNITED STATES PATENT
AND TRADEMARK OFFICE
-----------------------------------------------------------------------

BEFORE THE PATENT
TRIAL AND APPEAL BOARD
-----------------------------------------------------------------------

CAPTIONCALL, L.L.C.,
Petitioner,
v.
ULTRATEC, INC.,
Patent Owner.
-----------------------------------------------------------------------

Cases
IPR2013-00540 (Patent 6,233,314 B1)
IPR2013-00541 (Patent 5,909,482)
IPR2013-00542 (Patent 7,319,740 B2)
IPR2013-00543 (Patent 7,555,104 B2)
IPR2013-00544 (Patent 8,213,578 B2)
IPR2013-00545 (Patent 6,594,346 B2)
IPR2013-00549 (Patent 6,603,835 B2)
IPR2013-00550 (Patent 7,003,082 B2)
IPR2014-00780 (Patent 6,603,835 B2)
-----------------------------------------------------------------------

Before WILLIAM V. SAINDON, BARBARA A.
BENOIT, and LYNNE E. PETTIGREW, Administrative Patent Judges.
PER CURIAM.

App. 8
DECISION ON REMAND
35 U.S.C. § 318(a); 35 U.S.C. § 144
I.

INTRODUCTION

At issue in this Decision are nine petitions filed by
CaptionCall, L.L.C. (“Petitioner”) requesting an inter
partes review of certain claims in eight patents owned
by Ultratec, Inc. (“Patent Owner”). Petitioner filed the
first eight petitions on the same day. See IPR201300540 (“IPR540”), Paper 2 (challenging U.S. Patent No.
6,233,314 B1); IPR2013-00541 (“IPR541”), Paper 1
(challenging U.S. Patent No. 5,909,482); IPR201300542 (“IPR542”), Paper 1 (challenging U.S. Patent No.
7,319,740 B2); IPR2013-00543 (“IPR543”), Paper 1
(challenging U.S. Patent No. 7,555,104 B2); IPR201300544 (“IPR544”), Paper 1 (challenging U.S. Patent No.
8,213,578 B2); IPR2013-00545 (“IPR545”), Paper 1
(challenging U.S. Patent No. 6,594,346 B2); IPR201300549 (“IPR549”), Paper 1 (challenging U.S. Patent No.
6,603,835 B2); IPR2013-00550 (“IPR550”), Paper 1
(challenging U.S. Patent No. 7,003,082 B2). We
instituted reviews based on the first eight petitions.
While these reviews were proceeding in parallel,
Petitioner filed a ninth petition seeking a second inter
partes review of the patent challenged in IPR549 (i.e.,
U.S. Patent No. 6,603,835 B2), but challenging claims
other than those under review in IPR549. See
IPR2014-00780 (“IPR780”), Paper 7 (challenging U.S.
Patent No. 6,603,835 B2).
In due course we issued nine final written
decisions determining that Petitioner had shown by a
preponderance of the evidence that all of the reviewed

App. 9
claims were unpatentable. IPR540, Paper 78, 53 (Final
Written Decision); IPR541, Paper 76, 74 (Final Written
Decision); IPR542, Paper 66, 29 (Final Written
Decision); IPR543, Paper 66, 28 (Final Written
Decision); IPR544, Paper 74, 54 (Final Written
Decision); IPR545, Paper 65, 39 (Final Written
Decision); IPR549, Paper 71, 33 (Final Written
Decision); IPR550, Paper 57, 24 (Final Written
Decision); and IPR780, Paper 35, 55 (Final Written
Decision). Patent Owner appealed each of our final
written decisions to the United States Court of Appeals
for the Federal Circuit. The court issued its decision
vacating our nine final written decisions and
remanding these cases to the Board on August 28,
2017. Ultratec, Inc. v. CaptionCall LLC, 872 F.3d 1267
(Fed. Cir. 2017).
A. The Inter Partes Reviews
1. The Challenged Patents
The challenged patents describe various systems
and methods for assisting deaf, hard of hearing, or
otherwise hearing-impaired individuals in using
telephones. See, e.g., IPR542, Ex. 1001, 1:26–29. A
conventional system uses a device that includes a
keyboard, a display, and a specific type of modem, and
is known as a telecommunication device for the deaf
(TDD), a text telephone (TT), or a teletype (TTY). Id. at
1:37–43. When a hearing person who does not have
access to a TDD wishes to communicate with a
hearing-impaired person who uses a TDD, the parties

App. 10
may utilize a relay system, in which a human
intermediary, known as a “call assistant,” communicates with the hearing user by voice and with the
hearing-impaired user by using a TDD. Id. at 1:66–
2:11. In a conventional relay system, the call assistant
types, at a TDD keyboard, the words spoken by the
hearing user and voices to the hearing user the words
received on the TDD from the hearing-impaired user.
Id. at 2:11–16. The challenged patents relate to various
alleged improvements for providing a captioned
telephone service.
Some of the challenged patents relate to using
voice recognition software at the relay. For example,
instead of typing the hearing user’s words, the call
assistant re-voices those words into a microphone that
transmits the voice of the call assistant to a computer
with voice recognition software trained specifically to
the voice of the call assistant. Id. at 6:18–37. Using the
voice recognition software, the computer translates the
words of the call assistant to digital text, which is sent
to a display of the hearing-impaired user. Id. at 6:50–
57.
Many of the challenged patents describe a
captioned telephone device at the site of the assisted
user. Id. at 9:18–10:4. Figure 4 of the ’740 patent,
reproduced below, illustrates the setup of a telephone
call involving captioned telephone device 72:

App. 11

As shown in Figure 4, a hearing user at telephone 62
communicates with relay 66 through telephone line 64.
Id. at 9:20–22. The relay communicates both the voice
of the hearing user and a transcription of the text of
the conversation through telephone line 68 to an
assisted user. Id. at 9:22–23. At the assisted user’s site
are captioned telephone device 72, which includes a
display for text, and conventional telephone 70. Id. at
9:23–27. The functions of captioned telephone device
72 and telephone 70 may be combined into a single
device. Id. at 9:36–43. The arrangement shown in
Figure 4 sometimes is referred to as “single line”
because only one line is used at the assisted user’s site.
The single line carries both the text transcription and
the voice of the hearing user between the assisted
user’s site and the relay.
Some arrangements, however, involve two lines at
the assisted user’s site—one line to connect the
assisted user with the hearing user and another line to
connect the assisted user with the relay. This
arrangement is sometimes referred to as “two-line.”
For example, Figure 5 of the ’740 patent, reproduced
below, shows such an arrangement.

App. 12

As shown in Figure 5, this embodiment utilizes
voice-only telephone line 64 between telephone 62 of
the hearing user and telephone 70 at the assisted
user’s location, and a separate connection—telephone
line 78—carrying text and voice between relay 76 and
captioned telephone device 74 at the assisted user’s
location. Id. at 9:44–54. The voice of the hearing user
is received at telephone 70 and transferred to
telephone line 78 for transmission to relay 76, which
converts the spoken words to a text stream to be
returned to the assisted user via telephone line 78. Id.
at 9:54–57, 10:16-21.
2.

The Challenges

In its challenges, Petitioner collectively asserted
eleven references and relied on expert testimony of Mr.
Benedict Occhiogrosso. In its Responses in six
proceedings (IPR540, IPR541, IPR544, IPR545,
IPR549, and IPR780), Patent Owner relied on expert
testimony of Mr. Paul W. Ludwick. In the other three
proceedings (IPR542, IPR543, and IPR550), Patent

App. 13
Owner relied on expert testimony of Mr. James A.
Steel, Jr.
More specifically, Petitioner collectively asserted
the following references as prior art against various
challenged claims across the nine proceedings:
“Alshawi”—U.S. Patent No. 5,815,196.
“Choi”—W. Choi et al., Splitting and Routing
Audio Signals in Systems with Speech
Recognition, IBM TECHNICAL DISCLOSURE
BULLETIN, Vol. 38, No. 12, 503–04 (December
1995).
“Engelke ’405”—U.S. Patent No. 5,724,405.
“Jones”—PCT International Publication No. WO
95/00946.
“Liebermann”—U.S. Patent No. 5,982,853.
“McLaughlin”—U.S. Patent No. 6,181,736 B1.
“Mukherji”—U.S. Patent No. 7,117,152 B1.
“Ryan”—U.S. Patent No. 5,809,112.
“Vasile”—U.S. Patent No. 5,289,523.
“Wycherley”—U.S. Patent No. 5,163,081.
“Yamamoto”—Seiichi Yamamoto & Masanobu
Fujioka, New Applications of Voice Recognition,
Proc. JASJ Conf. (March 1996).
The prior art references were considered in the nine
proceedings in the following specific grounds:

App. 14
IPR/Patent

Reference(s)

Basis Claim(s)

IPR540
US 6,233,314

Ryan (Ex. 1004)

§ 102

1 and 2

Wycherley
(Ex. 1002) and
Yamamoto
(Ex. 1005, 1006)1

§ 103

1 and 2

IPR541
US 5,909,482

Ryan (Ex. 1004)

§ 102

1 and 5

Wycherley
(Ex. 1002) and
Yamamoto
(Ex. 1005, 1006)

§ 103

1 and 5

Wycherley,
Yamamoto,
and Jones
(Ex. 1008)

§ 103

2, 7, and
8

Wycherley,
Yamamoto,
and Choi
(Ex. 1009)

§ 103

3, 10, and
11

Wycherley,
Yamamoto,
and Vasile
(Ex. 1003)

§ 103

4, 13, and
14

Wycherley,
Yamamoto, and
Liebermann
(Ex. 1010)

§ 103

6

1

Ex. 1005 is in Japanese; Ex. 1006 is a certified English
translation.

App. 15
IPR/Patent

Reference(s)

Basis Claim(s)

IPR541
US 5,909,482

Wycherley,
Yamamoto,
Jones, and
Liebermann

§ 103

9

Wycherley,
Yamamoto,
Choi, and
Liebermann

§ 103

12

Wycherley,
Yamamoto,
Vasile, and
Liebermann

§ 103

15

IPR542
US 7,319,740

McLaughlin
(Ex. 1009) and
Ryan (Ex. 1004)

§ 103

1 and 2

IPR543
US 7,555,104

McLaughlin
(Ex. 1012) and
Ryan (Ex. 1005)

§ 103

1 and 2

IPR544
US 8,213,578

Ryan (Ex. 1004)

§ 102

7

Wycherley
(Ex. 1005) and
Yamamoto
(Ex. 1006, 1007)2

§ 103

7

Ryan and
McLaughlin
(Ex. 1009)

§ 103

7–11

2

Ex. 1006 is in Japanese; Ex. 1007 is a certified English
translation.

App. 16
IPR/Patent

Reference(s)

Basis Claim(s)

IPR545
US 6,594,346

Ryan (Ex. 1005)
and Alshawi
(Ex. 1010)

§ 103

1 and 2

IPR549
US 6,603,835

Liebermann
(Ex. 1008) and
Engelke ’405
(Ex. 1005)

§ 103

1–5 and 7

IPR550
US 7,003,082

McLaughlin
(Ex. 1006)

§ 102

1

IPR780
US 6,603,835

Liebermann
(Ex. 1008),
Engelke ’405
(Ex. 1005), and
Mukherji
(Ex. 1009)

§ 103

6 and 8

Of particular relevance here are three prior art
references—McLaughlin, Ryan, and Yamamoto—and
testimony of Petitioner’s expert, Mr. Occhiogrosso,
concerning the disclosures of those references and his
opinion that the challenged claims are unpatentable.
McLaughlin describes a simultaneous voice and
data (SVD) modem used in connection with a relay
service in which an operator mediates communications
between a hearing person and a hearing-impaired
person. IPR542, Ex. 1009, 30:13–31:63. McLaughlin
describes a hearing-impaired user using an answering
device or system comprising two SVD modems
connected to two communication links, Line A and
Line B. Id. at 30:59–63, 32:17–19. When a voice call

App. 17
from the hearing user arrives on the first line (Line
A), the answering device sets up an SVD link with
the relay service on the second line (Line B). Id. at
31:35–40. Voice sounds received from the hearing user
on Line A are sent to the relay operator on Line B. Id.
at 31:41–43. The relay operator translates the voice
sounds into text, which is sent over Line B to appear
on the screen of the hearing-impaired user’s answering
device. Id. at 31:43–47. The hearing-impaired user also
types responses back to the relay operator over Line B.
Id. at 31:47–49. The relay operator voices the text, and
the relay operator’s voice sounds are carried on Line B
to the hearing-impaired user’s answering device and
passed over to Line A to be heard by the hearing user.
Id. at 31:49–52. Conversation among all three parties
is “full duplex,” so that all parties may talk or type
simultaneously. Id. at 31:55–62.
McLaughlin also provides details about how its
SVD modems can be used to provide legacy services
such as “voice carry over” (VCO) and “hearing carry
over” (HCO). Id. at 29:65–30:12. Details regarding
McLaughlin’s ability to operate in a number of modes
are described in the section titled “Hearing/Speaking
Persons Calling Deaf and/or Speech Impaired
Persons,” which includes a number of subsections
discussing the features of the invention. See generally
id. at 29:18–34:56. One issue in these post-remand
proceedings concerns expert testimony of Mr.
Occhiogrosso regarding these various subsections in
McLaughlin.

App. 18
Issues in these post-remand proceedings also
involve Mr. Occhiogrosso’s testimony concerning
Ryan’s voice recognition software and its location.
Ryan describes a relay interface system for
communication between a standard telephone set used
by a hearing user and a TDD used by a hearingimpaired person. IPR542, Ex. 1004, Abstract, 1:6–10.
Figure 1 of Ryan is set forth below:

As shown in Figure 1, Ryan’s relay interface 10
includes operator/relay terminal 12 and connects
standard telephone set 14 with TDD 16 having
associated display 17. Id. at 3:43–48. Telecommunications link 18 connects telephone 14 with relay
interface 10 through agent device 20, and telecommunications link 22 connects TDD 16 with relay
interface 10 through relay terminal 12. Id. at 3:48–52.
An operator or relay agent typically is responsible for
manipulating relay terminal 12 using keyboard 26 to
relay messages between telephone 14 and TDD 16. Id.
at 4:19–21. Ryan indicates, however, that speech

App. 19
recognition software could be used to automate the
relay function so that an operator or relay agent would
not be required. Id. at 4:21–24. Ryan specifically describes
using speech recognition software at agent device 20 to
interpret a voice message from a caller at telephone 14
and convert the message from a voice format to a data
format. Id. at 4:24–27. Ryan further provides:
If the software is specifically designed to
recognize the voice of particular relay agents,
the accuracy of the relay service may be
improved by having one of these agents listen
to the caller and repeat the voice message into
a terminal adapted to convert the agent’s
voice message into a data message.
Id. at 4:33–38.
A related issue in these post-remand proceedings
involves Mr. Occhiogrosso’s testimony concerning the
location of software in Yamamoto. Yamamoto describes
tests of voice recognition systems. IPR540, Ex. 1006,
34–36. Along with other examples, Yamamoto
describes a test with an operator assistance system for
international calling, noting a preliminary step in an
operator assistance system for international calling is
“voice recognition of an operator repeating the
question from the [international calling] user” to
increase efficiency. Id. at 35 (§ 3.2).
B. Post-Remand Proceedings
In its opinion vacating the Board’s final written
decisions and remanding these proceedings to the

App. 20
Board, the Federal Circuit provided the following
instructions regarding the remand of these proceedings:
On remand, the Board shall admit and consider Mr. Occhiogrosso’s trial testimony [from
Ultratec, Inc. v. Sorenson Communications, Inc.,
No. 13-CV-00346 (W.D. Wis.)]. If the Board finds
he gave inconsistent testimony, the Board shall
consider the impact on the specific patents at
issue in the trial testimony as well as on his
credibility as a whole.
Ultratec, Inc. v. CaptionCall LLC, 872 F.3d 1267, 1275
(Fed. Cir. 2017).
We requested the parties submit proposals on the
conduct of the remanded proceedings. See, e.g., IPR540,
Paper 104 (“Remand Order”), 4. After discussing their
respective proposals in a conference call with the
parties, we issued an order regarding the scope of
remand, briefing, and supplementing the evidentiary
record. See, e.g., Remand Order; IPR540, Ex. 2029
(Transcript of conference call).
1.

Supplementing the Evidentiary Record

The Federal Circuit directed us to “admit and
consider Mr. Occhiogrosso’s trial testimony” but did not
specify whether all of Mr. Occhiogrosso’s district court
trial testimony, or only portions of it, should be
admitted. Ultratec, 872 F.3d at 1275; Remand Order 9.
Petitioner proposed that Patent Owner be permitted to
supplement the evidentiary record with the portions of
Mr. Occhiogrosso’s district court trial testimony on

App. 21
cross examination that Patent Owner alleges is
inconsistent with his testimony in these inter partes
reviews. Remand Order 9 (citing Ex. 2029, 10:2–15; Ex.
3004, 4).3 Petitioner further proposed that Petitioner
be permitted to supplement the record with additional
trial testimony from Mr. Occhiogrosso as necessary to
counter Patent Owner’s allegations of inconsistency.
Id. (citing Ex. 2029, 10:16–25; Ex. 3004, 4).
Patent Owner proposed that it be permitted to
supplement the record with Mr. Occhiogrosso’s
allegedly inconsistent testimony and additional testimony as needed for context, or all of Mr. Occhiogrosso’s
trial testimony if the Board believed that would be
helpful. Id. (citing Ex. 2029, 24:16–22).
After considering the parties’ proposals and the
Federal Circuit’s remand instructions, we indicated
having all of Mr. Occhiogrosso’s trial testimony entered
into the record of these proceedings would be
beneficial. Id. We then ordered Patent Owner to submit
a transcript of all of Mr. Occhiogrosso’s district court
trial testimony as an exhibit or exhibits in each of
these proceedings. Id. Subsequently, Patent Owner
filed Mr. Occhiogrosso’s trial testimony in each
proceeding as Exhibit 2031 (October 16, 2014 morning
testimony), Exhibit 2032 (October 16, 2014 afternoon
testimony), and Exhibit 2033 (October 17, 2014
testimony).

3

Citations in the Remand Order are to exhibits in IPR540
unless otherwise noted.

App. 22
2.

Authorized Briefing

Regarding briefing during the post-remand
proceeding, Petitioner indicated that the remand from
the Federal Circuit was narrow and was limited to
consideration of Mr. Occhiogrosso’s district court trial
testimony as directed by the Federal Circuit. Remand
Order 4 (citing Ex. 2029, 5:24–6:8; Ex. 3004, 1–2). In
particular, Petitioner asserted that the Board should
determine as a threshold issue whether Mr. Occhiogrosso gave inconsistent testimony, and then if, and
only if, the Board determines he did, the Board should
determine whether such inconsistent testimony
impacts the patents at issue in these proceedings and
Mr. Occhiogrosso’s credibility as a whole. Id. (citing Ex.
3004, 1–2). Petitioner proposed that briefing by the
parties should address both issues. Remand Order 4
(citing Ex. 3004, 2).
Patent Owner proposed that several topics should
be briefed by the parties and considered by the Board
on remand. Id. First, Patent Owner requested briefing
to identify and explain alleged inconsistencies in Mr.
Occhiogrosso’s testimony as they span topically across
the proceedings and to explain the impact of Mr.
Occhiogrosso’s credibility on the outcome of the
proceedings. Id. (citing Ex. 2029, 12:21–13:20; Ex.
3004, 2). In this regard, Patent Owner’s proposal
regarding Mr. Occhiogrosso’s testimony is similar to
Petitioner’s proposal described above. Id.
Patent Owner also sought to bring additional
issues into the scope of the remanded proceedings. Id.

App. 23
at 5. In light of the recent expiration of the subject
patents, Patent Owner proposed that the parties have
the opportunity to brief what claim constructions, if
any, would change under the standard set forth in
Phillips v. AWH Corp., 415 F.3d 1303 (Fed. Cir. 2005)
(en banc), and the impact of any revised constructions.
Id. (citing Ex. 2029, 14:9–16:20; Ex. 3004, 2). Patent
Owner further proposed that it be permitted to submit,
along with accompanying trial testimony, documentary evidence related to secondary considerations that
had been designated under the district court’s
protective order but has been unsealed since briefing
closed in the original inter partes review proceedings.
Id. (citing Ex. 2029, 16:21–19:14, 20:13–15; Ex. 3004,
2). Patent Owner also requested briefing to explain the
impact of such additional evidence on these
proceedings. Id. (citing Ex. 3004, 2). Finally, Patent
Owner sought targeted additional discovery and
briefing on the issue of whether Petitioner identified
all the real parties in interest. Id. (citing Ex. 2029,
20:22–24:8; Ex. 3004, 2). Patent Owner proposed a first
round of briefing to address all topics except
identification of real parties in interest, which Patent
Owner proposed to address in a second round of briefing overlapping with the first. Id. (citing Ex. 3004, 1).
Mindful of the Federal Circuit’s remand instructions, we authorized Patent Owner to file a brief that
(i) identifies with particularity portions of Mr. Occhiogrosso’s district court trial testimony that Patent
Owner alleges is inconsistent and explains how it is
inconsistent with specific testimony provided by Mr.

App. 24
Occhiogrosso in these proceedings, and (ii) explains
how the allegedly inconsistent testimony impacts
specific unpatentability determinations in the Board’s
final written decisions in these proceedings as well as
how it impacts Mr. Occhiogrosso’s credibility as a
whole. Id. at 5–6.
We authorized Petitioner to file a responsive brief
addressing the same issues as Patent Owner’s brief. Id.
at 6. We indicated that Petitioner may cite additional
portions of Mr. Occhiogrosso’s trial testimony to
counter Patent Owner’s allegations of inconsistency.
Id.
Regarding logistics, we authorized each party to
prepare a single brief addressing these issues with
respect to all of the proceedings and submit that brief
in each proceeding, making clear the proceeding in
which any particular paper or exhibit was entered. Id.
Subsequently, Patent Owner filed its Consolidated
Brief on Remand (see, e.g., IPR540, Paper 106, “PO Br.”)
and Petitioner filed its Response (see, e.g., IPR540,
Paper 107, “Pet. Br.”).
3.

Patent Owner’s Requests for Additional Briefing

In our Remand Order, we also explained that, if we
determined based on the parties’ initial remand briefs
that Mr. Occhiogrosso provided inconsistent testimony
and that any inconsistency impacted, in a material
way, our unpatentability determinations regarding the
patents at issue or Mr. Occhiogrosso’s credibility as a

App. 25
whole, we would consider at that time whether to
authorize briefing directed to the additional issues
identified by Patent Owner. Remand Order 6–7.
In addition, in our Remand Order, we specifically
addressed Patent Owner’s request to bring claim
construction issues into the post-remand proceedings.
Id. at 5, 7–9. We indicated that we were aware that the
Phillips standard of claim construction generally
applies to patents that have expired. Id. at 7. We
addressed the two cases cited by Patent Owner in
support of its position that it should have the
opportunity at this juncture to address the effect of any
claim constructions that might change under the
Phillips standard. Id. (citing Ex. 2029, 14:17–15:12
(citing In re CSB-System Int’l, Inc., 832 F.3d 1335,
1340–41 (Fed. Cir. 2016); Facebook, Inc. v. Pragmatus
AV, LLC, 582 F. App’x 864, 869 (Fed. Cir. 2014))). We
noted that in CSB-System, the Federal Circuit held
that when a patent expires during an appeal from an
examiner’s final rejection in an ex parte
reexamination, the Board must apply a Phillips claim
construction. Id. (citing 832 F.3d at 1341). We also
noted that in Facebook, the Federal Circuit construed
claim terms under Phillips when patents subject to
inter partes reexamination expired during the
pendency of the appeal of the Board’s decisions to the
Federal Circuit. Id. (citing 582 F. App’x at 868–69). We
concluded that these cases were not particularly on
point because neither one involves an inter partes
review proceeding or addresses whether the Board in
a remand proceeding, especially one with specific,

App. 26
tailored instructions from the Federal Circuit, necessarily must reinterpret under a Phillips framework
any previously construed claim terms when a patent
expires during the pendency of the remand. Id.
In opposition to Patent Owner’s position, Petitioner cited Personal Web Technologies, LLC v. Apple,
Inc., 848 F.3d 987 (Fed. Cir. 2017), in support of its
position that we should not allow briefing on how claim
terms would be construed under Phillips. Remand
Order 8 (citing Ex. 2029, 26:18–27:14). We explained in
our Remand Order that, in Personal Web, a patent
subject to inter partes review expired after the Board’s
final written decision but while a rehearing request
was pending before the Board. Id. (citing Personal Web,
848 F.3d at 990). On appeal to the Federal Circuit, the
parties disputed whether the Board properly applied a
broadest reasonable interpretation standard in construing claim terms at issue, with the Director of the
Patent and Trademark Office arguing in support of the
Board’s approach. Id. (citing Personal Web, 848 F.3d at
990). The court, however, determined that it need not
resolve the dispute because the Board’s construction
was correct under either standard. Id. (citing Personal
Web, 848 F.3d at 990). In our Remand Order, we
concluded that, although Petitioner contends that
Personal Web presents a situation similar to the one
here, the Federal Circuit ultimately did not address
the issue. Id.
In conclusion, we determined that the parties had
not identified, and we were not aware of, any authority
requiring us to reconsider on remand all of our earlier

App. 27
unpatentability determinations just because the
patents have since expired. Id. Through its reasoning
and explicit instructions to consider Mr. Occhiogrosso’s
trial testimony and the impact of any inconsistencies
on the challenged patents and Mr. Occhiogrosso’s
credibility, the Federal Circuit carefully delineated the
scope of the remand in these proceedings. Id. We
further indicated that, if we determined in the course
of following the court’s remand instructions that
inconsistencies in Mr. Occhiogrosso’s testimony require us to reevaluate the patentability of any claims,
we would at that point consider Patent Owner’s
requests for additional briefing on specific topics,
including claim construction under the Phillips
standard. Id. at 8–9.
Neither party requested rehearing of our Remand
Order that indicated how the post-remand proceedings
would be conducted. See 37 C.F.R. § 42.71(d) (providing
that a party dissatisfied with a decision may file a
single request for rehearing without prior authorization from the Board and any such request must be filed
within 14 days of the entry of a non-final decision).
Patent Owner’s counsel, however, contacted the Board
on February 28, 2018 (eight weeks after entry of our
Remand Order on January 3, 2018, and nearly four
weeks after Patent Owner filed its Remand Brief on
February 2, 2018) and again on May 8, 2018. Patent
Owner sought confirmation that Patent Owner would
be given the opportunity to put its arguments and
evidence on the record regarding its arguments on real
party in interest, claim construction, and purported

App. 28
additional evidence that Petitioner copied the claimed
inventions, regardless of our ultimate conclusion on
whether Mr. Occhiogrosso’s testimony warrants revisiting the merits of these proceedings.
Our Remand Order unambiguously delineated the
scope of authorized briefing: only whether Mr. Occhiogrosso’s district court trial testimony was inconsistent
with his testimony in these inter partes review
proceedings and the impact of any inconsistency.
Remand Order 5. Our Remand Order explained that
this authorization reflected the Federal Circuit’s
specific instructions on the scope of remand (Remand
Order 5) and repeated those instructions (Remand
Order 2):
On remand, the Board shall admit and
consider Mr. Occhiogrosso’s trial testimony
[from Ultratec, Inc. v. Sorenson Communications, Inc., No. 13-CV-00346 (W.D. Wis.)]. If
the Board finds he gave inconsistent testimony, the Board shall consider the impact on
the specific patents at issue in the trial
testimony as well as on his credibility as a
whole.
Ultratec, 872 F.3d at 1275.
In view of the unambiguous instructions of the
Federal Circuit reflected in our Remand Order, we view
Patent Owner’s request for “confirmation” of its ability
to present evidence and arguments outside the scope
of remand as a request for rehearing of our order
defining the scope of these post-remand proceedings.

App. 29
Patent Owner’s request was made six weeks after the
deadline for filing a request for rehearing. We deny
Patent Owner’s request because Patent Owner failed
to comply with the 14-day requirement to file a request
for rehearing. 37 C.F.R. § 42.71(d); see 37 C.F.R.
§ 42.25(b) (“Delay in seeking relief may justify a denial
of relief sought.”). Moreover, in our Remand Order, we
explained reasons for our determination of the scope of
post-remand proceedings, particularly the clear
instructions from the Federal Circuit as noted above.
Remand Order 3–10. We also specifically explained our
reasons for disagreeing with Patent Owner’s request to
revisit the merits of all nine proceedings under the
Phillips claim construction standard. Id. at 5, 7–9. In
addition, the administrative record for each proceeding
includes Patent Owner’s proposed scope of remand (Ex.
3004) and transcript of the conference call in which
Patent Owner described the arguments and evidence
it sought to be included in the scope of remand (Ex.
2029), each of which was cited in the Remand Order.
II.

ANALYSIS

As mentioned above, Patent Owner alleges that
Petitioner’s expert, Mr. Occhiogrosso, gave inconsistent
testimony regarding the McLaughlin, Ryan, and
Yamamoto references. We first address the testimony
regarding McLaughlin, then the testimony regarding
Ryan’s disclosure on voice recognition software, and
finally the testimony regarding software location, the
latter of which involves Ryan and Yamamoto.

App. 30
A. Testimony Regarding McLaughlin
Patent Owner states that “[a] central issue in
these proceedings is whether McLaughlin discloses a
captioned telephone device that provides both voice
and text.” PO Br. 12. Patent Owner states that, in
IPR550, we “relied on Occhiogrosso’s testimony that
McLaughlin disclosed all of the claim elements in a
‘single system.’ ” Id. at 13. That the claim elements be
disclosed in a single system is relevant because our
holding in IPR550 is one of anticipation.4 According to
4

Anticipation prohibits the combination of distinct embodiments of a single reference. See, e.g., Net MoneyIN, Inc. v.
VeriSign, Inc., 545 F.3d 1359, 1371 (Fed. Cir. 2008) (“[I]t is not
enough that the prior art reference . . . includes multiple, distinct
teachings that [an ordinary] artisan might somehow combine to
achieve the claimed invention.”). Our analysis in the Final
Written Decision in IPR550 uses the phrase “single system,”
which should be understood to mean a disclosure describing a
device arranged as claimed, sufficient for purposes of
anticipation. IPR550, Paper 57, 20 (“McLaughlin’s disclosure . . .
is describing options for a single system, not separate
embodiments.”); see also Net MoneyIN, 545 F.3d at 1369 n.5
(“[C]ourts are not constrained to proceed example-by-example
when reviewing an allegedly anticipating prior art reference.
Rather, the court must, while looking at the reference as a whole,
conclude whether or not that reference discloses all elements of
the claimed invention arranged as in the claim.”). Further, we
distinguish between the features of a single system (i.e., a
collection of components that operate together) and the features
housed inside a single, contiguous box. In our Final Written
Decision in IPR550, when we construed “captioned telephone
device,” we noted that the specification of the ’082 patent made
clear that various features of the device could be located in
separate physical structures. IPR550, Paper 57, 9 (pointing out
that the audio function may be separate from the text function
(citing Ex. 1001, 9:20–32, 9:15–20, 10:67–11:3, and Figs. 4–6)).
We reiterated that position in our Decision on Rehearing. IPR550,

App. 31
Patent Owner, Mr. Occhiogrosso testified before us that
McLaughlin disclosed a single system described in
multiple sections of McLaughlin’s specification, but
“undermined that position at [the district court] trial.”
Id. at 15; see also id. at 18–19 (listing the three
passages Patent Owner believes support its position).
Patent Owner concludes that Mr. Occhiogrosso cited to
different sections of McLaughlin as if they disclosed a
single system before us, but allegedly testified that
they were different at the district court trial. Id. at 20.
Petitioner asserts that Mr. Occhiogrosso has been
consistent in his testimony throughout the PTAB and
district court proceedings. In particular, Petitioner
directs us to several passages in the testimony from
the district court proceeding where Mr. Occhiogrosso
indicates that he considers the various passages of
McLaughlin to all describe “the same device,”
consistent with his testimony in the IPRs. Pet. Br. 10
(citing Ex. 2032, 89:10–21); id. at 13 (citing Ex. 2032,
87:24–88:8); id. at 15 (citing Ex. 2032, 23:11–24:7); id.
at 16 (citing Ex. 2032, 40:19–41:2). Petitioner
addresses the three passages cited by Patent Owner
Paper 59, 4 (“[T]here was no requirement for all features of the
claims to be found in one housing or a ‘single device.’ ”). Thus,
when we say McLaughlin discloses a “single system,” we mean
that McLaughlin discloses a collection of components that operate
together. Contrary to Patent Owner’s allegations, we are not
referring to the combination of multiple embodiments. See PO Br.
23–24. This distinction is relevant because in our Final Decision,
the testimony of Mr. Occhiogrosso, and the arguments of Patent
Owner may each use the word “system” slightly differently in
different contexts, and it is that context that must be considered
to understand the meaning.

App. 32
and sets forth its explanation for why that testimony
is not inconsistent. Id. at 10–14. Petitioner asserts that
Mr. Occhiogrosso’s testimony was consistent before
both tribunals. Id. at 16.
Having reviewed the arguments and evidence
before us, we find Mr. Occhiogrosso’s district court
testimony to be consistent with his IPR testimony
regarding McLaughlin. In our analysis below, we
address in turn the three passages from Mr. Occhiogrosso’s district court testimony cited by Patent Owner
as evidence of inconsistency.5 We then address the
implications of this analysis on the Final Written
Decisions in which we determined claims were
unpatentable on grounds based at least in part on
McLaughlin.
1.

Trial Testimony, Passage 1

Patent Owner alleges that Mr. Occhiogrosso
testified in district court that Section A of McLaughlin
discloses a one-modem system while Section B
5

The parties and the testimony reference various “sections”
of McLaughlin, which refer to various headings in the body of that
text. Section “A” is directed to column 29, line 64 to column 30,
line 12. Section “B” is column 30, line 13 to column 33, line 54.
Section “C” is column 33, line 55 to column 34, line 56. See also,
e.g., PO Br. 19 (“Occhiogrosso admitted that Section A
discloses. . . .”); Ex. 2032, 89:10–21 (“Q. Do you know, as you’re
sitting there right now, whether this system disclosed in section
b) . . . is disclosing a different system than the other two sections
that you cited?”). Sections A, B, and C are subsections of the
larger section titled “Hearing/Speaking Persons Calling Deaf
and/or Speech Impaired Persons.” See supra Section I.A.2.

App. 33
discloses a two-modem system. PO Br. 18 (citing Ex.
2033, 39:19–40:8; Ex. 2032, 89:22–90:10). Petitioner
responds that Mr. Occhiogrosso explains (at the
portion immediately prior to Patent Owner’s cite) that
he understands McLaughlin to be discussing the same
device in those different sections. Pet. Br. 10–11 (citing
Ex. 2032, 89:10–21). Reviewing these passages, it is
clear to us that Mr. Occhiogrosso’s testimony is not
inconsistent, and Patent Owner is only arguing
semantics.
In the passage reproduced by Patent Owner at
page 18 of its brief, Mr. Occhiogrosso is asked whether
the Section A disclosure “is discussing a system in
which the user uses one SVD modem.” Ex. 2033, 39:19–
21 (emphasis added). Mr. Occhiogrosso answers in the
affirmative. Id. at 39:22. Similarly, Mr. Occhiogrosso is
asked about “the use of two SVD modems” in Section
B, to which he answers in the affirmative again. Id. at
40:6–8 (emphasis added). The use of a system is
different than its structure—a system must have at
least the structure used, but it may have other
structures not used in that particular passage. There
is nothing in the above testimony that indicates that
Mr. Occhiogrosso believes that sections A and B
describe separate embodiments having different
numbers of modems; he merely describes how many
modems are used by the system in each section. This is
entirely consistent with his testimony throughout the
district court trial that McLaughlin teaches a single
system having many features:

App. 34
Q. Do you know, as you’re sitting there right
now, whether this system disclosed in section
b) New Techniques For Hearing/Speaking
Persons to Call . . . Deaf and/or Speech
Impaired Persons, do you know whether this
section is disclosing a different system than
the other two sections that you cited?
A. My understanding of the specification is
it’s a versatile device that is capable of
operating in a number of configurations, so it
was my interpretation of the specifications
that it’s the same device.
Ex. 2032, 89:10–21.
Q. And you can’t tell me, as you sit here right
now, whether you cited two different sections?
A. Oh, no. They’re clearly different sections.
Q. Are they different systems?
A. I don’t believe they’re different systems.
They’re a system deployed in a different
context, one in a LAN/WAN, one in a WAN
with two SVD links connected to it. So I
couldn’t categorically say they’re two different
systems. I don’t think that was your earlier
question perhaps or maybe I misunderstood
it.
Id. at 87:24–88:8.
Q. Do you understand—do you have an
understanding as to whether those are
separate devices?

App. 35
A. My understanding is it’s an integrated
device.
Q.

An integrated device that what?

A.

May have different operating modes.

Q. Would you turn, please, to page 006 of
Exhibit 1913, which is column 3, lines 47
through 50? This is also a text in the
McLaughlin patent?
A.

Yes.

Q. Would you read that first sentence there
in that paragraph?
A. “Different embodiments of the invention
may include some but not others of the
various modes and features.”
Q. As a person of ordinary skill in the art,
would you have read that section or that line
before you read section 4?
A.

Yes.

Ex. 2033, 24:3–19.
Q. This was a system in which there were
two users who were connected directly to one
another on a LAN or WAN connection,
correct?
A.

That’s what’s posited here, yes.

Q. So this is a different system than the
system in section b) and a different system
than the system in section a), correct?

App. 36
A. No, I don’t see that. In other words, to me
it’s another operating mode.
Id. at 40:19–41:2.
In IPR550, we based our finding that McLaughlin
teaches a single system at least in part on Mr.
Occhiogrosso’s testimony before us, consistent with his
testimony before the district court, that McLaughlin
teaches a single system having many features. IPR550,
Paper 57, 20.
2.

Trial Testimony, Passage 2

Patent Owner alleges that Mr. Occhiogrosso
“admitted that the Section A one-modem system
discloses a traditional [Voice Carry Over] call, which
uses a one-line arrangement.” PO Br. 19 (citing Ex.
2032, 90:7–19). Petitioner correctly points out that Mr.
Occhiogrosso was not asked about McLaughlin’s
system here, but rather was asked a hypothetical
question about a “traditional VCO call.” Pet. Br. 11. The
relevant portion of the testimony is reproduced below:
Q. In a VCO call, in a traditional VCO call,
that’s a one-line arrangement, correct?
A.

Yes.

Q. So the deaf user is connected on one line
to the relay, correct?
A.

In a traditional VCO, yes.

Ex. 2032, 90:14–19 (emphasis added).

App. 37
We find no admission here regarding McLaughlin;
Patent Owner is attempting to re-characterize Mr.
Occhiogrosso’s discussion of a hypothetical traditional
VCO system into a discussion of McLaughlin’s system.
As additional evidence that Mr. Occhiogrosso’s testimony is consistent, we note that Mr. Occhiogrosso also
expresses confusion over Patent Owner’s attempts to
conflate McLaughlin’s disclosure of the “use” of certain
components of the system in different sections with
disclosures of multiple systems. When asked whether
Section A “only us[es] one SVD modem,” Mr. Occhiogrosso responds that the singular word is used, but
then expresses confusion as to why Patent Owner
thinks this is important. Mr. Occhiogrosso responds
that the use of a single modem does not mean that
there are not more modems, and pushes back on Patent
Owner’s attempts to elicit a different response. The
entire discussion is reproduced below:
Q. Do you know, as you’re sitting there right
now, whether this system disclosed in section
b) New Techniques For Hearing/Speaking
Persons to Call . . . Deaf and/or Speech
Impaired Persons, do you know whether this
section is disclosing a different system than
the other two sections that you cited?
A. My understanding of the specification is
it’s a versatile device that is capable of
operating in a number of configurations, so it
was my interpretation of the specifications
that it’s the same device.

App. 38
Q. Okay. We just talked about how, in section
a) VCO/HCO With SVD Modems, that system
uses a relay. And then I think you agreed, over
on column 33, the section c) New Techniques
For VCO/HCO Access, that system does not
use a relay, correct?
A.

Correct.

Q. Now, let’s compare that with section a) in
column 29, VCO/HCO With SVD Modems.
That section discloses the user is only using
one SVD modem; isn’t that correct?
A. I see it is singular word, “a SVD modem.”
But I fail to, what’s the word I’m looking for,
appreciate the depth of your question; in other
words, what’s the big deal to equip the device
with one or two modems.
Q. In a VCO call, in a traditional VCO call,
that’s a one-line arrangement, correct?
A.

Yes.

Q. So the deaf user is connected on one line
to the relay, correct?
A.

In a traditional VCO, yes.

Q. So doesn’t that inform us here that when
McLaughlin is talking about a VCO call, he’s
talking about one connection and therefore
one SVD modem?
A. I suppose you could have the two-line
architecture still talk to the relay.

App. 39
Q. That’s not what McLaughlin says in
section a) though, correct?
A. He really doesn’t say. Where do you see
where he says that?
Ex. 2032, 89:10–91:3.
Taking this discussion in context, Mr. Occhiogrosso testifies that the specification describes “the
same device,” and then is asked about whether the
device uses various components in various modes, to
which Mr. Occhiogrosso answers in a manner consistent with his “same device” opinion. Mr. Occhiogrosso
does not understand “what’s the big deal” with one or
two modems because using a certain number of
modems in one mode is different from having a certain
number of modems.6 Mr. Occhiogrosso later clarifies
this when he responds that use of the VCO mode would
only require one of the two modems (“I suppose you
could have the two-line architecture still talk to the
relay.”). In sum, the testimony of Mr. Occhiogrosso is
that McLaughlin discloses a single device and, in his
opinion, the silence of McLaughlin as to what to do
with an unused modem in one mode that does not need
that modem is not itself important.

6

Patent Owner argues that this “what’s the big deal”
statement undermines Mr. Occhiogrosso’s position (PO Br. 21),
but Patent Owner again conflates the description of a device using
certain components with a device being limited only to those
components, and also conflates Mr. Occhiogrosso’s confusion with
Patent Owner’s questions with lack of understanding the
technology.

App. 40
3.

Trial Testimony, Passage 3

Patent Owner alleges “Occhiogrosso admitted that
Section A and Section C disclose ‘different systems’
because one discloses a relay and one does not.” PO Br.
19 (citing Ex. 2032, 88:9–15). Petitioner responds that
Occhiogrosso makes clear, immediately prior to Patent
Owner’s cited portion of the testimony, that he does not
believe they are independent embodiments but rather
different sections addressing the features of a multifeatured system. Pet. Br. 13–14. We reproduce the
testimony cited by both parties below:
Q. And you can’t tell me, as you sit here right
now, whether you cited two different sections?
A.

Oh, no. They’re clearly different sections.

Q.

Are they different systems?

A. I don’t believe they’re different systems.
They’re a system deployed in a different
context, one in a LAN/WAN, one in a WAN
with two SVD links connected to it. So I
couldn’t categorically say they’re two different
systems. I don’t think that was your earlier
question perhaps or maybe I misunderstood
it.
Q. Does the system spanning—that’s
described in the paragraph spanning column
29 to 30 use a relay?
A.

Yes.

Q. So looking back to your slide, this
morning you cited two different systems, one
that uses a relay and one that doesn’t, correct?

App. 41
A.

I would have to say you are correct.

...
Q. Let’s turn to McLaughlin and look at
where those citations fall. Let’s just start with
column 31, line 43 to 47. And then let’s trace
back up column 31 and back up column 30 to
column 30, lines 13 to 14. Do you see that your
citations on this slide are to yet a third
different system disclosed in McLaughlin?
A. What makes you believe this is a third
different system?
Q. Do you know, as you’re sitting there right
now, whether this system disclosed in section
b) New Techniques For Hearing/Speaking
Persons to Call . . . Deaf and/or Speech
Impaired Persons, do you know whether this
section is disclosing a different system than
the other two sections that you cited?
A. My understanding of the specification is
it’s a versatile device that is capable of
operating in a number of configurations, so it
was my interpretation of the specifications
that it’s the same device.
Ex. 2032, 87:24–89:21.
Just as in the prior passages, Mr. Occhiogrosso is
consistent in his testimony that McLaughlin discloses
a single system that uses the appropriate components
when operating in different contexts. The testimony
regarding “one [system] that uses a relay and one that
doesn’t” is not inconsistent with his position because

App. 42
Mr. Occhiogrosso is again testifying as to which
components are used. That Mr. Occhiogrosso uses the
word “system” as a stand-in for what he had previously
called “context[s]” is merely arguing semantics. The
substance of what Mr. Occhiogrosso is saying is clear
based on the surrounding testimony, where he states
that McLaughlin discloses a system having multiple
features. E.g., Ex. 2032, 18–21 (“My understanding of
the specification is it’s a versatile device that is capable
of operating in a number of configurations, so it was
my interpretation of the specifications that it’s the
same device.”). That Mr. Occhiogrosso possibly used a
word imprecisely once during the day of oral testimony
does not change his repeated statements that
McLaughlin has a single device having certain
features, even if some of them are not described as
being used at the same time as other features.
4. Conclusion on Occhiogrosso’s
Testimony Regarding McLaughlin
Reviewing the arguments and evidence before us,
we find that Mr. Occhiogrosso provided consistent
testimony regarding McLaughlin in the district court
and before us in the IPRs. Thus, we find that his
testimony before us remains credible with regard to
McLaughlin. Furthermore, contrary to Patent Owner’s
arguments, we explain below why any alleged
inconsistencies, even if they existed, do not impact the
Final Written Decisions in IPR542, IPR543, IPR544,
and IPR550, the only decisions addressing grounds
based on McLaughlin.

App. 43
a. IPR2013-00542, IPR2013-00543,
and IPR2013-00544
In our Final Written Decisions in IPR542, IPR543,
and IPR544, we determined that claims 1 and 2 of the
’740 patent, claims 1 and 2 of the ’104 patent, and
claims 8–11 of the ’578 patent are unpatentable as
obvious over the combination of McLaughlin and Ryan.
IPR542, Paper 66, 29; IPR543, Paper 66, 28; IPR544,
Paper 74, 54.7 In each of these decisions, we found that
McLaughlin teaches a captioned telephone device as
required by the claims. IPR542, Paper 66, 20 (citing Ex.
1009, 30:46–48, 30:59–63, 31:41–47, 32:41–52);
IPR543, Paper 66, 19–20 (citing Ex. 1012, 30:46–48,
30:59–63, 31:41–47, 32:41–52); IPR544, Paper 74, 51
(citing Ex. 1009, 30:46–48, 30:59–63, 31:41–47, 32:41–
52). Notably, all portions of McLaughlin explicitly cited
in our analysis of that claim limitation appear in what
Patent Owner refers to as Section B. Therefore, Patent
Owner’s contention regarding Mr. Occhiogrosso’s
allegedly inconsistent testimony—that he admitted in
district court that different sections of McLaughlin
(i.e., Sections A, B, and C) disclose different systems
but testified before us that they disclose the same
system—would not affect the result in these three

7

On rehearing, we modified our analysis regarding the
rationale for combining McLaughlin and Ryan, but did not
reconsider our findings that McLaughlin teaches a captioned
telephone device. See IPR542, Paper 68, 2–7 (Rehearing
Decision); IPR543, Paper 68, 2–7 (Rehearing Decision); IPR544,
Paper 76, 10–13 (Rehearing Decision).

App. 44
decisions, even if the allegation were true, which it is
not for the reasons explained above.
Moreover, Patent Owner’s entire argument regarding Mr. Occhiogrosso’s testimony on McLaughlin
relates to our anticipation finding in IPR550, which,
according to Patent Owner, relied on Mr. Occhiogrosso’s testimony that McLaughlin discloses all the
claim elements in a “single system.” PO Br. 13. Thus,
we agree with Petitioner that Patent Owner fails to
explain how any alleged inconsistencies on this point
implicate the obviousness determinations in IPR542,
IPR543, and IPR544. See Pet. Br. 18. Furthermore,
even if our decisions in these cases had relied on
disclosure from different sections of McLaughlin for
teaching the captioned telephone device recited in the
claims of the ’740 patent, ’104 patent, and ’578 patent,
such reliance would not preclude a conclusion of
obviousness, even if the different sections described
different systems (which, as explained above, was not
Mr. Occhiogrosso’s testimony in either the district
court trial or the IPRs).
Finally, Patent Owner argues that in making our
unpatentability determinations in IPR542, IPR543,
and IPR544, we “explicitly credited [Mr.] Occhiogrosso’s opinions over those of [Patent Owner’s expert,
Mr.] Steel.”8 PO Br. 22–23 (citing IPR542, Paper 66, 20,

8

Patent Owner fails to recognize that in IPR544 it relied on
the testimony of Mr. Ludwick, rather than that of Mr. Steel, in
support of its unpatentability arguments, and we likewise
referred to Mr. Ludwick’s testimony in the Final Written

App. 45
24; IPR543, Paper 66, 20; IPR544, Paper 74, 51, 53). In
our decisions, however, we first made findings as to
McLaughlin’s teaching of a captioned telephone device,
supported by ample citation to McLaughlin, and
explained why Patent Owner’s arguments were
unpersuasive. See, e.g., IPR542, Paper 66, 20. Then,
“based on our review of McLaughlin,” we credited Mr.
Occhiogrosso’s testimony over that of Patent Owner’s
declarants. Id. In other words, Mr. Occhiogrosso’s
testimony only confirmed our independent reading of
McLaughlin, and, for the reasons discussed above, Mr.
Occhiogrosso’s district court testimony aligns with his
testimony before us.
b. IPR2013-00550
Patent Owner points out that we relied on the
testimony of Mr. Occhiogrosso when we found in
IPR550 that McLaughlin describes a microphone, a
speaker, and a visually readable display. PO Br. 23–25.
Indeed, in our analysis of claim 1 of the ’082 patent, we
relied on Mr. Occhiogrosso’s testimony when we found
that a “person of ordinary skill in the art would
consider McLaughlin to be disclosing a device capable
of all of the HCO/VCO features described therein.”
IPR550, Paper 57, 20 (citing IPR550, Ex. 1030 ¶¶ 23–
24). Patent Owner is incorrect, however, when it states
“the Board cited no other evidence [besides
Occhiogrosso] to support its findings that McLaughlin
Decision. See e.g., IPR544, Paper 74, 51 (citing Ex. 2010 ¶¶ 32–
34).

App. 46
discloses a captioned telephone device.” PO Br. 24. Our
analysis of claim 1 does not require citation to Mr.
Occhiogrosso’s testimony because we repeatedly cite to
and rely on the McLaughlin reference itself. See
generally IPR550, Paper 57, 15–24. Even as to the
portion of the decision where we cited to Mr.
Occhiogrosso’s testimony, we had already found “the
microphone, speaker, and display limitations properly
read on the device described in McLaughlin.” Id. at 19;
see also id. at 18–19 (citing to the various portions of
McLaughlin disclosing these features). It was only in
addressing Patent Owner’s arguments that we cited
Mr. Occhiogrosso’s testimony. Id. at 19–20 (stating, “To
the extent Patent Owner is arguing . . . ,” followed by
our response to that potential argument). Accordingly,
we have found Mr. Occhiogrosso’s testimony reliable
and trustworthy, but even if we had not, it would not
affect the outcome of IPR550.
B. Testimony Regarding Ryan
Patent Owner argues that during the district
court trial, Mr. Occhiogrosso made “several related
admissions” concerning his testimony “surrounding”
Ryan. PO Br. 28. Specifically, Patent Owner contends
that Mr. Occhiogrosso’s trial testimony was
inconsistent with his opinion, provided in six of the
proceedings before us,9 that Ryan describes voice
recognition software “trained to the voice of the call
assistant,” as required by the claims at issue in those
9

IPR540, IPR541, IPR542, IPR543, IPR544, and IPR545.

App. 47
cases. Id. Patent Owner cites several excerpts of
allegedly inconsistent trial testimony, which, when
reordered, comprise the following single passage of
testimony:
Q. Let’s focus on the sentence [from Ryan]
we have highlighted, “If the software is
specifically designed to recognize the voice of
particular relay agents.” And if we could now
compare with claim 1 of the ’482 patent,
please, read along with me in the middle
paragraph. “The digital computer using voice
recognition computer software trained to the
voice of the call assistant.” The sentence you
cited in Ryan does not say “trained to the voice
of the call assistant,” does it?
A. Could you put the sentence back up? The
word trained does not appear in the sentence.
Q. Would you agree the act of designing software means developing a set of requirements
and codifying those requirements into instructions in some kind of programming
language that would subsequently be compiled, in most instances, or interpreted and
executed as a process?
A.

That’s one variation of software design.

Q. And that’s your definition of the act of
designing a software, isn’t it?
A. I don’t recall. Is that from another
transcript? Perhaps. Sounds like something I
might have said.

App. 48
Q. Do you agree with that definition of the
act of designing software?
A.

I think that’s a fair characterization of it.

Q. Earlier today you were talking about
speaker-dependent voice recognition software
and I believe you indicated that users train
the software so it can learn their voice,
correct?
A.

Yes.

Q. The software isn’t predesigned to
recognize the voice when it’s speaker
dependent, correct?
A.

Of course not.

Ex. 2032, 78:3–79:10.
Patent Owner alleges this trial testimony is
inconsistent with Mr. Occhiogrosso’s IPR testimony in
three ways. First, Patent Owner contends that Mr.
Occhiogrosso “admitted that Ryan did not say that its
disclosed software was ‘trained to the voice of the call
assistant.’ ” PO Br. 30 (citing Ex. 2032, 78:3–13). As set
forth above, Mr. Occhiogrosso’s actual testimony was
that the word “trained” does not appear in the portion
of the sentence from Ryan quoted to him during crossexamination. This testimony does not reveal an
inconsistency, as Patent Owner does not allege Mr.
Occhiogrosso testified during the IPRs that the
applicable phrase from Ryan uses the word “trained.”
Further, a reference need not satisfy an ipsissimis
verbis test to anticipate, In re Gleave, 560 F.3d 1331,

App. 49
1334 (Fed. Cir. 2009), so Mr. Occhiogrosso’s acknowledgment that the specific word “trained” does not
appear in Ryan does not contradict his testimony in
the IPRs that Ryan describes software “trained to the
voice of the call assistant,” as recited in the claims at
issue.
Second, Patent Owner argues that Mr. Occhiogrosso’s district court testimony regarding his
definition of “designing software” is inconsistent with
his opinion before the Board that Ryan’s disclosure of
software “specifically designed to recognize the voice of
particular relay agents” teaches software trained to
the voice of the call assistant. PO Br. 29–30 (citing Ex.
2032, 78:14–79:2). Again, the cited trial testimony does
not show an inconsistency. As Petitioner points out, Mr.
Occhiogrosso earlier provided the same definition of
“designing software” during a deposition for the first
eight IPR proceedings, including the six with
unpatentability grounds based on Ryan. See Pet. Br. 22
(citing, e.g., IPR540, Ex. 2007, 270:13–19). We fail to
see how Mr. Occhiogrosso’s agreement with that
definition during his cross-examination at trial can be
the basis for an inconsistency with his testimony in the
proceedings before us when the definition in the
question posed to Mr. Occhiogrosso was taken directly
from his IPR deposition testimony.
Moreover, Mr. Occhiogrosso characterized that
definition of “designing software” as just “one variation
of software design.” Ex. 2032, 78:14–79:2. Significantly,
he did not apply the definition directly to Ryan’s
disclosure of software that is “specifically designed.”

App. 50
Because Mr. Occhiogrosso’s trial testimony regarding a
definition of “designing software” is not tied to the
disclosure of Ryan itself, the testimony does not reveal
an inconsistency with Mr. Occhiogrosso’s IPR testimony that Ryan teaches software trained to the voice
of the call assistant. Indeed, immediately after
providing that definition in his IPR testimony, Mr.
Occhiogrosso turned to Ryan and confirmed that
software “specifically designed” as disclosed means
that the developers “built into the software the ability
to recognize the voice of a particular agent,” which
would be achieved with “whatever speaker-dependent
speech recognition algorithm that they elected to adopt
and . . . codify into software.” E.g., IPR540, Ex. 2007,
270:20–271:9.
Finally, Patent Owner argues that with his
answers to the last two questions in the trial testimony
passage quoted above (Ex. 2032, 79:3–10), Mr. Occhiogrosso admitted that speaker-dependent software is
not “predesigned to recognize the voice.” PO Br. 29
(emphasis added). Patent Owner apparently contends
this testimony contradicts Mr. Occhiogrosso’s opinion
in the IPRs that Ryan’s disclosure of software
“specifically designed to recognize the voice of
particular relay agents” teaches software “trained to
the voice of the call assistant,” as recited in the claims.
See id. at 31. As with the preceding excerpt, however,
this trial testimony does not address Ryan’s disclosure
of “specifically designed” software, and therefore is not
inconsistent with Mr. Occhiogrosso’s IPR testimony
that Ryan describes software trained to the voice of a

App. 51
call assistant. See, e.g., IPR540, Ex. 1053 ¶ 41.
Furthermore, portions of Mr. Occhiogrosso’s district
court testimony that do specifically address Ryan
corroborate his testimony in the IPRs that the claimed
voice recognition software “trained to the voice of the
call assistant” is met by Ryan’s disclosure of software
“specifically designed to recognize the voice of particular relay agents.” Ex. 2031, 65:17–66:7 (providing
opinion that Ryan satisfies the claim language); Ex.
2033, 21:10–22:6 (explaining that a person of ordinary
skill in the art would understand Ryan specifically
designed software to include speaker-dependent
speech recognition software that has been trained).
For these reasons, we conclude that the passage
from Mr. Occhiogrosso’s trial testimony quoted above
(Ex. 2032, 78:3–79:10) does not conflict with his IPR
testimony. Accordingly, there is no impact of these
alleged inconsistencies concerning Ryan on the Final
Written Decisions in IPR540, IPR541, IPR542, IPR543,
IPR544, and IPR545. We find that Mr. Occhiogrosso’s
testimony before us remains credible with regard to
Ryan’s teaching of voice recognition software that can
be trained to the voice of the call assistant.
C. Testimony Regarding Software Location
Patent Owner contends that Mr. Occhiogrosso’s
trial testimony concerning whether the claims require,
and whether the prior art references Ryan and
Yamamoto disclose, voice recognition software stored
at the call assistant workstation conflicts with his

App. 52
IPR testimony. PO Br. 34–46. Patent Owner asserts
Mr. Occhiogrosso’s trial testimony regarding software
location conflicts with his testimony in IPR540 and
IPR541 involving the following challenges:
Case

Patent

Reference(s) Basis

Claim(s)

IPR540 6,233,314 Ryan

§ 102(e) 1 and 2

IPR541 5,909,482 Ryan

§ 102(e) 1 and 5

IPR541 5,909,482 Wycherley
and
Yamamoto

§ 103(a) 1 and 5

IPR541 5,909,482 Wycherley,
§ 103(a) 6
Yamamoto,
and
Liebermann
PO Br. 34–46.
Having reviewed the parties’ arguments and
evidence, we find that there is no inconsistency in Mr.
Occhiogrosso’s trial and IPR testimony regarding
whether the prior art discloses voice recognition
software stored at the call assistant workstation. We
also find that there is no inconsistency in Mr.
Occhiogrosso’s trial and IPR testimony regarding
whether the claims require such a limitation. In our
analysis below, we first address Patent Owner’s
contentions regarding Ryan, then Patent Owner’s
contentions regarding Yamamoto, and finally Patent
Owner’s contentions regarding claim scope.

App. 53
1.

Testimony Concerning Ryan

Patent Owner contends that at the district court
trial Mr. Occhiogrosso acknowledged that Ryan does
not disclose voice recognition software stored at the
call assistant workstation. PO Br. 34 (citing Ex. 2032,
49:14–52:8, 56:25–58:13, 63:2–22), 38–39 (quoting Ex.
2032, 56:25–57). According to Patent Owner, Mr.
Occhiogrosso testified at trial that Ryan discloses voice
recognition software stored at the call agent’s
telephone device (Ryan’s Device 20), not at the relay
agent’s terminal. PO Br. 34 (citing Ex. 2032, 49:14–
52:8, 56:25–58:13, 63:2–22), 38–39 (quoting Ex. 2032,
56:25–58:13). But, according to Patent Owner, Mr.
Occhiogrosso testified the opposite in the IPR
testimony—that Ryan discloses voice recognition
software stored at the call assistant workstation. PO
Br. 34–35 (citing IPR540, Ex. 1014 ¶¶ 28, 32, 44;
IPR541, Ex. 1014 ¶¶ 28, 32, 44). For the reasons
explained below, we find no inconsistency between Mr.
Occhiogrosso’s district court trial and IPR testimony.
a. Trial Testimony
In the district court trial, under crossexamination, Mr. Occhiogrosso testified that voice
recognition software stored in Ryan “could be
employed at Device 20,” which, according to Mr.
Occhiogrosso, Ryan characterizes as the relay agent
phone device. Ex. 2032, 56:25–57:17; PO Br. 38–39
(quoting Ex. 2032, 56:25–58:13). Notably, when asked
to agree that Device 20 was not a workstation of a call

App. 54
assistant, Mr. Occhiogrosso did not agree, but
equivocated that “one possibility” was that Device 20
was “just a phone” and not a call assistant workstation.
Ex. 2032, 57:14–2210; PO Br. 38–39 (quoting Ex. 2032,
56:25–58:13).
Moreover, Mr. Occhiogrosso testified at trial about
another embodiment in Ryan in which a single
composite terminal performs the functions of the relay
agent’s telephone (Device 20, which stores voice
recognition software) and the functions of Terminal 12
(which, according to Petitioner, corresponds to the call
assistant workstation required by the claims). Ex.
2032, 58:2–611; see Ex. 2032, 59:10–11; PO Br. 39
(quoting Ex. 2032, 56:25–58:13); Pet. Br. 34–35 (citing
Ex. 2032, 59:5–23). Mr. Occhiogrosso agreed with
Patent Owner’s counsel that Ryan does not disclose

10

Ex. 2032, 57:14–22 (“Q. Do you know what Device 20 is?
. . . A. Device 20 is the agent device. Q. It’s a telephone, isn’t it?
A. . . . yes, that’s how it is characterized in the patent, agent
phone device. Q. That’s not a workstation of a call assistant, is it?
A. Well, agent phone device, I mean, it could be, but I think the
term phone may suggest that it’s just a phone. That’s one
possibility.”).
11
Ex. 2032, 58:2–6 (“Well, I’m going to just interject that, you
know, essentially in Ryan there is a passage that contemplates
another embodiment where he reads, ‘Of course a single
composite terminal could be utilized to perform the functions of
both Device 20 and Terminal 12.’ ”); Ex. 2032, 59:10–11 (Mr.
Occhiogrosso testifying that “I also indicated that the passage in
Ryan discloses that one could have a composite terminal.”).

App. 55
that voice recognition software is saved on the
composite terminal. Ex. 2032, 58:7–13,12 59:12–15.13
b. IPR Testimony
Patent Owner and Petitioner both recognize, as do
we, that in Mr. Occhiogrosso’s reply declaration in the
IPRs, he testified unequivocally that Ryan discloses
voice recognition software stored at the relay agent’s
terminal. IPR540, Ex. 1053 ¶ 40; IPR541, Ex. 1053
¶ 40; Pet. Br. 37 (citing IPR540, Ex. 1053 ¶ 40; IPR541,
Ex. 1053 ¶ 40); PO Br. 37 (citing IPR540, Ex. 1053 ¶ 40;
IPR541, Ex. 1053 ¶ 40). In his reply declaration, Mr.
Occhiogrosso indicates that he “understand[s] that
Patent Owner additionally asserts that Ryan fails to
disclose that the relay agent’s computer contains voice
recognition software.” IPR540, Ex. 1053 ¶ 40 (citing
IPR540, Paper 30 (Patent Owner’s Response), 25–26);
see also IPR541, Ex. 1053 ¶ 40. Addressing Patent
Owner’s assertion, Mr. Occhiogrosso testifies that
“Ryan clearly discloses that software located at the
relay is in fact contained in ‘terminal 12,’ the relay
agent’s terminal.” IPR540, Ex. 1053 ¶ 40 (citing Ex.
1004, 2:49–51); see also IPR541, Ex. 1053 ¶ 40. Mr.
12

Ex. 2032, 58:7–13 (“Q. But [Ryan] doesn’t say the voice
recognition software is saved on that combination terminal, does
it? A. Ryan doesn’t say that, but that’s obvious to a person of
ordinary skill that I could combine those two capabilities and
essentially have—I mean, with all due respect, that’s not rocket
science to put those two boxes together.”).
13
Ex. 2032, 59:12–15 (“Q. But [Ryan] does not disclose that
the voice recognition software is saved on the terminal, correct?
A. Well, that’s my implication. Okay. Let me read it again.”).

App. 56
Occhiogrosso supports this testimony by relying on a
passage in Ryan not discussed in his trial testimony.
IPR540, Ex. 1053 ¶ 40 (citing Ex. 1004, 2:49–51); see
also IPR541, Ex. 1053 ¶ 40. According to Mr. Occhiogrosso, Ryan discloses, in column two, that a relay
terminal may include voice recognition software.
IPR540, Ex. 1053 ¶ 40 (citing Ex. 1004, 2:49–51); see
also IPR541, Ex. 1053 ¶ 40. Specifically, Mr. Occhiogrosso testifies:
I understand that Patent Owner
additionally asserts that Ryan fails to disclose
that the relay agent’s computer contains voice
recognition software. PO Response, pp. 25-26.
However, Ryan clearly discloses that software
located at the relay is in fact contained in
“terminal 12,” the relay agent’s terminal. Ex.
1004, 2:49-51 (“The computer program may
analyze the words prior to transmission to the
TDD (if the program resides at the relay
terminal)” (emphasis added)). Indeed, Patent
Owner’s argument appears to rest entirely on
the assertion that the terminal referenced in
the revoicing embodiment could be a different
terminal than the one uniformly referred to
through the patent, which is remote from the
relay agent. PO Response, p. 24.
IPR540, Ex. 1053 ¶ 40; see also IPR541, Ex. 1053 ¶ 40.
c. Analysis
We do not find any inconsistency between Mr.
Occhiogrosso’s trial and IPR testimony regarding

App. 57
Ryan’s disclosure of voice recognition software stored
at a call assistant workstation. During the IPR
proceedings, Mr. Occhiogrosso testified that Ryan
discloses voice recognition software stored on “terminal 12.” Patent Owner cites no trial testimony in
which Mr. Occhiogrosso stated that voice recognition
software is not stored on Ryan’s “terminal 12.” Rather,
Patent Owner cites Mr. Occhiogrosso’s testimony,
during cross-examination at trial, that (i) Ryan
expressly discloses voice recognition software at
Device 20; (ii) Ryan expressly discloses a composite
terminal that combines the functions of Device 20 and
Terminal 12; (iii) but that Ryan has no express
statements that voice recognition software is located
on the composite terminal.
The fact that Mr. Occhiogrosso testified in the
IPRs that Ryan discloses in another passage that voice
recognition software is being stored on Terminal 12
does not conflict with his trial testimony that was
limited to other passages in Ryan and that never
directly indicated that voice recognition software was
not stored in Terminal 12. Moreover, Patent Owner
fails to address Mr. Occhiogrosso’s testimony
concerning a composite terminal having the functions
of Device 20 and Terminal 12, which was given in the
context of Mr. Occhiogrosso’s trial testimony about
Device 20. This further undermines Patent Owner’s
contentions of inconsistency.

App. 58
2.

Testimony Concerning Yamamoto

Patent Owner contends that Mr. Occhiogrosso
provided district court trial testimony inconsistent
with his IPR testimony when at trial he testified that
Section 3.2 of Yamamoto “does not disclose anything
about where voice recognition software is stored.” PO
Br. 40–41 (citing Ex. 2032, 63:2–22); Ex. 2032, 63:2–
13.14
Regarding Mr. Occhiogrosso’s IPR testimony,
Patent Owner acknowledges that Mr. Occhiogrosso did
not address in his reply declaration the issue of
whether Yamamoto discloses where voice recognition
software is stored. PO Br. 37 (citing IPR540, Ex. 1053
¶¶ 54–62; IPR541, Ex. 1053 ¶¶ 54–62). Patent Owner,
however, contends that, in the IPR proceedings, Mr.
Occhiogrosso testified “that it was ‘apparent’ to one of
ordinary skill in the art that Yamamoto disclosed
‘speaker-dependent voice recognition’ software at the
‘operator system.’ ”). PO Br. 42 (citing IPR540, Ex. 1014
¶ 41; IPR541, Ex. 1014 ¶ 41).
The portion of Mr. Occhiogrosso’s IPR testimony
cited by Patent Owner, however, does not support
Patent Owner’s position. Mr. Occhiogrosso testified
that Yamamoto discloses “using voice recognition on
the voice ‘of an operator repeating the question from
14

Ex. 2032, 63:2–13 (“Q. And I’ve got some language here
from Section 3.2 of Yamamoto. . . . And this section of Yamamoto
does not disclose anything about where voice recognition software
is stored, correct? A. From my one reading of it, I would say that
that statement that you had made is correct.”).

App. 59
the user’ ” (referred to in many of the IPRs as
“revoicing”) and, though not expressly described in
Yamamoto, that such a revoicing system would benefit
from training the voice recognition system to the voice
of the operator. IPR540, Ex. 1014 ¶ 41; IPR541, Ex.
1014 ¶ 41. Thus, this testimony concerns revoicing and
the benefits of speaker-dependent voice recognition
over speaker-independent voice recognition for an
operator assistance system (as opposed to a fully
automated voice recognition system). Mr. Occhiogrosso’s testimony discusses revoicing functionality,
not the location where voice recognition software is
stored. We, therefore, do not agree that Mr. Occhiogrosso testifies in paragraph 41, as Patent Owner
alleges, that “Yamamoto necessarily required speakerdependent voice recognition software at the operator
system.” PO Br. 36 (citing IPR540, Ex. 1014 ¶ 41;
IPR541, Ex. 1014 ¶ 41).
Because Patent Owner has not identified IPR
testimony, and we are unaware of any, in which Mr.
Occhiogrosso opined that Yamamoto discloses voice
recognition software stored on the operator system, we
do not perceive any IPR testimony that conflicts with
Mr. Occhiogrosso’s trial testimony that Yamamoto in
Section 3.2 does not disclose where voice recognition
software is stored.
3.

Testimony Concerning Claim Scope

Patent Owner points to Mr. Occhiogrosso’s trial
testimony concerning the scope of certain claims as

App. 60
being inconsistent with his IPR testimony. PO Br. 34,
37–38 (citing Ex. 2032, 49:14–25, 50:12–51:3, 52:1–8).
Patent Owner may be arguing that Mr. Occhiogrosso’s
trial testimony concerning whether the claims require
voice recognition software stored at the call assistant
workstation is inconsistent with Mr. Occhiogrosso’s
IPR testimony. See PO Br. 37 (indicating “[Mr.]
Occhiogrosso testified at trial that the claims-at-issue
require voice recognition software at the call assistant
workstation and that neither Ryan nor Yamamoto
disclose that element”); PO Br. 34, 37–38. But Patent
Owner does not identify any IPR testimony that
purportedly is inconsistent. Thus, we find that Mr.
Occhiogrosso’s trial testimony concerning the scope of
the claims is not inconsistent with any IPR testimony
concerning claim scope.
Patent Owner further contends that Mr.
Occhiogrosso’s conclusions in the IPRs that Ryan
anticipates the claims and the claims would have been
obvious over Yamamoto (in combination with other
references) is “fundamentally contradictory and
cannot be reconciled” with his trial testimony that
“neither Ryan nor Yamamoto disclosed this element.”
PO Br. 34 (“At trial, Mr. Occhiogrosso agreed with
[Patent Owner’s] assessment” that the claims required
voice recognition software at the call assistant
workstation, and “further acknowledged that neither
Ryan nor Yamamoto disclosed the element.”) (citing
Ex. 2032, 49:14–52:8, 56:25–58:13, 63:2–22).
We understand Patent Owner to contend that
concluding claims of the ’314 patent and the ’482

App. 61
patent are anticipated by Ryan or would have been
obvious over Yamamoto (in combination with other
references) in the IPRs requires Mr. Occhiogrosso to
conclude that Ryan and Yamamoto disclose voice
recognition software stored at the call assistant
workstation. PO Br. 34–35. And, as we understand
Patent Owner, this position is inconsistent with his
trial testimony that neither Ryan nor Yamamoto
discloses voice recognition software located at the call
assistant workstation in the IPRs. PO Br. 34–35.
We disagree. First, for the reasons discussed
above, we do not agree with Patent Owner’s broad
conclusion that Mr. Occhiogrosso testified at trial that
Ryan does not disclose voice recognition software
stored at the call assistant workstation. Rather, at
trial, Mr. Occhiogrosso testified concerning two
passages in Ryan.
Second, we disagree that Mr. Occhiogrosso
testified that Yamamoto does not disclose voice
recognition software stored at the call assistant
workstation. Rather, Mr. Occhiogrosso’s trial testimony
identified by Patent Owner was limited to a particular
section of Yamamoto (Section 3.2). PO Br. 34 (citing Ex.
2032, 63:2–22). Mr. Occhiogrosso himself limited his
testimony to the particular section of Yamamoto.15
15

Ex. 2032, 63:18–25 (“Q. And this section of Yamamoto
[Section 3.2] does not disclose anything about where the voice
recognition software is stored, correct? A. From my one reading of
it, I would say that that statement that you ha[ve] made is
correct. Q. And so in regard to the ’482 patent and the ’314 patent,
I believe you had obviousness grounds that were based on

App. 62
Third, in its Brief, as in the IPRs, Patent Owner
asserts that the claims require voice recognition
software stored at the call assistant workstation. PO
Br. 34. In our Final Written Decisions in IPR540 and
IPR541, we concluded that the claims of the ’314 and
’482 patents do not require voice recognition software
to be located at the call assistant workstation. IPR540,
Paper 78, 10; IPR541, Paper 76, 12. Our conclusion was
based on the plain language of the claims that require
a computer only to use a voice recognition computer
software package trained to the voice of the call
assistant and do not expressly require the voice
recognition computer software package to be stored on
the call assistant’s workstation, which is only one of
various devices involved in the relay system. IPR540,
Paper 78, 8–10; IPR541, Paper 76, 10–12. We also
explained that
neither Patent Owner nor Mr. Ludwick
[Patent Owner’s expert] addresses sufficiently
how a person of ordinary skill in the art would
understand the limitation “the computer
programmed to use” a software package to
require the software package to be stored on
the computer programmed to use the software
package.
Yamamoto, correct? A. Yes. Q. And so to the extent that the claims
of those patents require voice recognition software resident on a
call assistant’s workstation, the combinations involving
Yamamoto would be missing this element, correct? A. With the
citation to this paragraph only, yes. I think I would need to look
at the remainder of Yamamoto to see if in fact there were other
citations that were applicable. . . .”).

App. 63
Thus, we will not construe “computer
programmed to use a voice recognition
computer software package trained to the
voice of the call assistant” as requiring the
software package to be stored on the computer
programmed to use the software.
IPR540, Paper 78, 9 (emphasis in original); see IPR541,
Paper 76, 11–12 (similar conclusion in the context of
the claim language of the ’482 patent).
Thus, because the broadest reasonable construction of the claims does not require storage of voice
recognition software at the call assistant workstation,
we do not agree with Patent Owner that Mr.
Occhiogrosso’s conclusion in the IPRs that the claims
were anticipated by Ryan and would have been obvious
over Yamamoto (and other references) “necessarily
requires him to have concluded that Ryan and
Yamamoto did disclose this element,” requiring voice
recognition software to be stored on the call assistant
workstation. PO Br. 34–35 (citing IPR540, Ex. 1014
¶¶ 28, 32, 44; IPR541, Ex. 1014 ¶¶ 28, 32, 44).
4. Conclusion on Mr. Occhiogrosso’s
Testimony Regarding Software Location
For these reasons, we conclude that Mr.
Occhiogrosso’s trial testimony concerning whether the
claims require, and whether the prior art references
Ryan and Yamamoto disclose, voice recognition
software stored at the call assistant workstation does
not conflict with his IPR testimony. Accordingly, there

App. 64
is no impact of these alleged inconsistencies concerning software location on the Final Written
Decisions in IPR540 or IPR541. We find that Mr.
Occhiogrosso’s testimony before us remains credible
with regard to software location.
D. Conclusion Regarding
Mr. Occhiogrosso’s Testimony
We have admitted and considered Mr. Occhiogrosso’s district court testimony. Upon consideration,
as explained above, we have found that Mr.
Occhiogrosso’s district court testimony is consistent
with his testimony offered in these proceedings.
Accordingly, we determine that the admitted district
court testimony has no effect on Mr. Occhiogrosso’s
credibility as a whole across all the proceedings.
We also have found that the alleged inconsistencies have no impact on the Final Written Decisions
in IPR540, IPR541, IPR542, IPR543, IPR544, IPR545,
and IPR550, the specific cases alleged by Patent
Owner to involve inconsistent testimony from Mr.
Occhiogrosso. See PO Br. 22–25, 31–34, 42–44. Our
reasons in support of those findings are set forth in the
analysis above.
Two cases remain unaddressed: IPR549 and
IPR780. These cases do not involve McLaughlin, Ryan,
or Yamamoto. Patent Owner does not allege, nor do we
see, how the allegedly inconsistent district court
testimony is implicated in these cases, aside from its
applicability to the general credibility of Mr.

App. 65
Occhiogrosso. To that point, however, we have found
Mr. Occhiogrosso to be a credible witness based on our
above review.
Furthermore, in IPR549, our reliance on Mr.
Occhiogrosso is limited to supplementing our findings
that are supported by other evidence of record. We cite
to Mr. Occhiogrosso’s testimony as a backup to our
citations to Liebermann itself, finding that “Liebermann discloses a device having one telephone line
between the hearing user and the assisted user,
without a relay interposing on that line.” IPR549,
Paper 71, 17 (citing Liebermann as support for that
finding, with Mr. Occhiogrosso’s testimony cited as a
“see also” cite). We then discussed how we did not find
Patent Owner’s arguments or the testimony of its
declarant, Mr. Steel, persuasive because they were in
contrast to the specific teachings of Liebermann. Id. at
18.16 Only after discussing why Patent Owner’s
arguments and its declarant’s testimony were not
persuasive in view of Liebermann itself did we discuss
Mr. Occhiogrosso’s testimony. But there, we merely
state that his testimony is consistent with Liebermann
and that Mr. Steel’s testimony was not consistent with
Liebermann (which we had just discussed). Thus, we
have found Mr. Occhiogrosso’s testimony reliable and
16

Patent Owner argued that Liebermann disclosed a
“switch,” but we found “Liebermann does not use or imply those
words.” Id. at 18. Then we discussed Patent Owner’s arguments
and Mr. Steel’s testimony directed to the diagram in Figure 2 with
further discussion of Liebermann. Id. Then we again addressed
Patent Owner’s “party call” argument with further citations to
Liebermann regarding two cellular connections. Id.

App. 66
trustworthy, but even if we had not, it would not affect
the outcome of IPR549.
Similarly, Patent Owner does not allege, nor do we
see, how the allegedly inconsistent testimony in
Exhibits 2031, 2032, and 2033 is implicated in IPR780,
aside from its applicability to the general credibility of
Mr. Occhiogrosso. To that point, however, we have
found Mr. Occhiogrosso to be a credible witness based
on our above review. In addition, as Petitioner correctly
notes, in IPR780 Patent Owner had the opportunity as
a matter of right to enter, and had the opportunity to
cross-examine Mr. Occhiogrosso during routine
discovery on, the testimony we now consider in
Exhibits 2031, 2032, and 2033. Pet. Br. 6–7. Patent
Owner declined to do so.
Furthermore, our reliance on Mr. Occhiogrosso in
IPR780 is limited to a single passage where we bolster
our existing finding that the proposed combination
would have been predictable (based on Mukherji), with
further testimony from Mr. Occhiogrosso. IPR780,
Paper 35, 36–37 (relying on Mukherji to respond to
Patent Owner’s argument), 37 (relying on “the
disclosure of Mukherji itself ” as evidence, and then,
“[i]n addition,” citing to Occhiogrosso). Accordingly, we
have found Mr. Occhiogrosso’s testimony reliable and
trustworthy, but even if we had not, it would not affect
the outcome of IPR780.

App. 67
III.

CONCLUSION

Upon remand, we were ordered to “admit and
consider” the district court testimony of Mr.
Occhiogrosso and “[i]f the Board finds he gave
inconsistent testimony,” to “consider the impact on the
specific patents at issue in the trial testimony as well
as on his credibility as a whole.” Ultratec, 872 F.3d at
1275. As we have explained above, we do not find Mr.
Occhiogrosso to have given inconsistent testimony, and
we find him to remain a credible witness as a whole.
We have thus discharged our duty on remand, and find
that no changes to our prior decisions are warranted.
Accordingly, our prior Final Written Decisions stand,
in conjunction with this Decision on Remand, as our
Final Written Decisions for these proceedings.
IV.

ORDER

In view of the foregoing, it is hereby
ORDERED that our Final Written Decisions in
IPR2013-00540, IPR2013-00541, IPR2013-00542,
IPR2013-00543, IPR2013-00544, IPR2013-00545,
IPR2013-00549, IPR2013-00550, and IPR2014-00780
are hereby modified to include this Decision, but are
otherwise not modified upon remand; and
FURTHER ORDERED that this is a final written
decision under 35 U.S.C. § 318(a) and parties to the
proceeding seeking judicial review of this Decision
must comply with the notice and service requirements
of 37 C.F.R. § 90.2.

App. 68
PETITIONER:
Ruben Munoz
rmunoz@akingump.com
Michael Kahn
mkahn@akingump.com
Daniel Moffett
dmoffett@akingump.com
Caitlin Olwell
colwell@akingump.com
PATENT OWNER:
Michael Jaskolski
michael.jaskolski@quarles.com
Michael J. Curley
michael.curley@quarles.com
Martha Jahn Snyder
martha.snyder@quarles.com
Nikia L. Gray
nikia.gray@quarles.com
Kristin Graham Noel
kgn@quarles.com

App. 69
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

ULTRATEC, INC.,
Appellant
v.
CAPTIONCALL, LLC,
Appellee
JOSEPH MATAL, PERFORMING THE
FUNCTIONS & DUTIES OF THE UNDER
SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT &
TRADEMARK OFFICE, UNITED STATES,
Intervenors
-----------------------------------------------------------------------

2016-1706, 2016-1707, 2016-1710, 2016-1712
-----------------------------------------------------------------------

Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2013-00540, IPR2013-00541, IPR2013-00544,
IPR2013-00545.
------------------------------------------------------

App. 70
ULTRATEC, INC.,
Appellant
v.
CAPTIONCALL, LLC,
Appellee
JOSEPH MATAL, PERFORMING THE
FUNCTIONS & DUTIES OF THE UNDER
SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT &
TRADEMARK OFFICE, UNITED STATES,
Intervenors
-----------------------------------------------------------------------

2016-1708, 2016-1709, 2016-1715
-----------------------------------------------------------------------

Appeals from the United States Patent and Trademark Office, Patent Trial and Appeal Board in Nos.
IPR2013-00542, IPR2013-00543, IPR2013-00550.
------------------------------------------------------

ULTRATEC, INC.,
Appellant
v.
CAPTIONCALL, LLC,
Appellee
JOSEPH MATAL, PERFORMING THE
FUNCTIONS & DUTIES OF THE UNDER
SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND

App. 71
DIRECTOR, U.S. PATENT &
TRADEMARK OFFICE, UNITED STATES,
Intervenors
-----------------------------------------------------------------------

2016-1713, 2016-2366
-----------------------------------------------------------------------

Appeals from the United States Patent and Trademark Office, Patent Trial and Appeal Board in Nos.
IPR2013-00549, IPR2014-00780.
-----------------------------------------------------------------------

Decided: August 28, 2017
-----------------------------------------------------------------------

KRISTIN GRAHAM NOEL, Quarles & Brady, LLP,
Madison, WI, argued for appellant. Also represented by
ANTHONY ALLEN TOMASELLI, MATTHEW J. DUCHEMIN,
STEPHEN J. GARDNER, MARTHA JAHN SNYDER; EDWARD
KING POOR, Chicago, IL; MICHAEL A. JASKOLSKI, Milwaukee, WI; NIKIA L. GRAY, Washington, DC; MICHAEL
J. CURLEY, Tucson, AZ.
PRATIK A. SHAH, Akin, Gump, Strauss, Hauer &
Feld, LLP, Washington, DC, argued for appellee. Also
represented by ZEWEN JULIUS CHEN, RACHEL J. ELSBY;
MICHAEL P. KAHN, CAITLIN ELIZABETH OLWELL, New
York, NY.
FARHEENA YASMEEN RASHEED, Office of the Solicitor, United States Patent and Trademark Office, Alexandria, VA, argued for intervenor Joseph Matal. Also

App. 72
represented by NATHAN K. KELLEY, THOMAS W. KRAUSE,
JEREMIAH HELM, SCOTT WEIDENFELLER.
MARK R. FREEMAN, Appellate Staff, Civil Division,
United States Department of Justice, Washington, DC,
for intervenor United States. Also represented by SARAH CARROLL.
-----------------------------------------------------------------------

Before NEWMAN, LINN, and MOORE, Circuit Judges.
MOORE, Circuit Judge.
The present appeals arise from a series of inter
partes reviews (“IPRs”) between Ultratec, Inc. (“Ultratec”)
and CaptionCall, LLC (“CaptionCall”). Ultratec owns
U.S. Patent Nos. 5,909,482 (“the ’482 patent”),
6,233,314 (“the ’314 patent”), 6,594,346 (“the ’346 patent”), 6,603,835 (“the ’835 patent”), 7,003,082 (“the
’082 patent”), 7,319,740 (“the ’740 patent”), 7,555,104
(“the ’104 patent”), and 8,213,578 (“the ’578 patent”).
The patents disclose and claim systems for assisting
deaf or hard-of-hearing users to make phone calls.
CaptionCall petitioned for IPR of certain claims of
Ultratec’s patents. The Patent Trial and Appeal Board
(“the Board”) held that all challenged claims were either anticipated or would have been obvious in light of
a variety of prior art references. Ultratec appealed to
our court. The United States Patent and Trademark
Office and the Department of Justice (collectively, “the
PTO”) intervened to defend the Board’s decisions. Because the Board failed to consider material evidence

App. 73
and failed to explain its decisions to exclude the evidence, we vacate and remand.
BACKGROUND
Ultratec and CaptionCall are currently litigating
in both district court and before the Board. Ultratec
sued CaptionCall and its parent company for infringement in the Western District of Wisconsin. The case
proceeded to trial, where the jury found the patents
valid and infringed and awarded damages of $44.1 million. Five months after the verdict, the Board issued
final written decisions holding all challenged claims of
Ultratec’s patents were either anticipated or would
have been obvious. The district court subsequently
stayed all post-judgment proceedings pending final
resolution of the IPRs.
CaptionCall retained the same invalidity expert—
Mr. Benedict Occhiogrosso—in the district court litigation and the IPRs. In some instances, Mr. Occhiogrosso
testified about the same issues and references in both
proceedings. Ultratec sought to introduce the trial testimony into the IPRs, alleging that Mr. Occhiogrosso’s
trial testimony conflicted with written declarations he
made in the IPRs.
Ultratec moved to supplement the record with
the inconsistent Occhiogrosso trial testimony. Because Ultratec had not first requested authorization to
file the motion with the inconsistent testimony, the
Board expunged the motion from the record. PTO Br.
at 10 n.8. The Board’s regulations require that a party

App. 74
seeking to introduce supplemental evidence more than
one month after institution first request authorization
to file a motion to submit the evidence. 37 C.F.R.
§ 42.123(b). As the PTO explained to Ultratec, with regard to its request to file a motion to supplement the
record, “[n]o evidence is permitted to be filed,” and the
briefing “must not include a discussion of the contents
or types of the particular documents sought to be
entered.” PTO Br. at 10 n.8. On October 30, 2014,
within a week of the jury trial, Ultratec requested authorization to file a motion to submit portions of Mr.
Occhiogrosso’s trial testimony to the Board. Ultratec
alleged that Mr. Occhiogrosso’s trial testimony addressing a prior art reference was inconsistent with
his IPR declarations on that same point.1 On November 4, 2014, the Board held a conference call to consider
Ultratec’s request for authorization to file a motion to
supplement the IPR record with Mr. Occhiogrosso’s
trial testimony. The Board did not review the testimony when deciding whether it could be admitted. J.A.
9005; see PTO Br. 10 n.8. It denied Ultratec’s request
during the call and indicated a written order would
follow. The Board never issued any such order. On November 19, 2014, two weeks after the conference call,

1

See J.A. 6818 (“For example, the type of testimony Patent
Owners were proffering included Mr. Occhiogrosso testifying
generally in agreement with Patent Owner’s points above that
traditional VCO is a one-line arrangement, and that there are differences between the embodiments in Sections 4(a), 4(b), and 4(c)
of McLaughlin.”).

App. 75
the Board conducted a short oral hearing on the
Ultratec patents.2
The Board issued final written decisions, holding
that every challenged claim was either anticipated or
would have been obvious. These final written decisions
rely heavily on the Board’s belief that Mr. Occhiogrosso
was a credible witness. See, e.g., J.A. 11,206 (“It is
within our discretion to assign the appropriate weight
to the testimony offered by Mr. Occhiogrosso.”). The
Board cited Mr. Occhiogrosso’s testimony over thirty
times to support its findings, including at least once for
each of the eight patents on appeal.3 In some instances,
2

The PTO at times refers to the IPR proceedings as a “trial.”
PTO Br. 5. Very seldom do IPR proceedings have the hallmarks
of what is typically thought of as a trial. See Joanna Shepherd,
Disrupting the Balance: The Conflict Between Hatch-Waxman
and Inter Partes Review, 6 NYU J. INTELL. PROP. & ENT. L. 14, 37
(2016) (“In contrast to the expansive discovery and witness testimony that is common in district court litigation, discovery is significantly restricted and live testimony is rarely allowed in IPR
proceedings.”); Eric Cohen, A Primer on Inter Partes Review, Covered Business Method Review, and Post-Grant Review Before the
Patent Trial and Appeal Board, 24 FED. CIR. B.J. 1, 5 n.40 (2014)
(noting that in the first two years of IPRs, the Board allowed live
testimony once). In this case, the IPR proceeding itself was limited to a brief argument by the lawyers for each side, and there
was no live testimony by any witness.
3
See, e.g., -1706 appeal J.A. 27, 49, 53 (addressing the ’314
patent); J.A. 3644, 3648, 3655, 3660, 3664 (addressing the ’482
patent); J.A. 7393, 7395, 7403, 7405 (addressing the ’578 patent);
J.A. 7419, 7420, 7421 (addressing the ’578 patent on rehearing);
J.A. 11,195, 11,205, 11,206 (addressing the ’346 patent); -1708
appeal J.A. 23, 27 (addressing the ’740 patent); J.A. 38, 40 (addressing the ’740 patent on rehearing); J.A. 3224 (addressing
the ’104 patent); J.A. 3237, 3239 (addressing the ’104 patent on

App. 76
the Board explicitly found Mr. Occhiogrosso more credible than Ultratec’s expert. See J.A. 23 (“We credit the
testimony of Mr. Occhiogrosso over that of Mr. Steel on
this issue. . . .”); J.A. 3660 (“Weighing Mr. Occhiogrosso’s
testimony against Mr. Ludwick’s testimony, we credit
Mr. Occhiogrosso’s testimony. . . .”); J.A. 7403 (“On
this point, based on our review of McLaughlin, we
credit the testimony of Petitioner’s declarant, Mr.
Occhiogrosso, over that of Patent Owner’s declarant,
Mr. Ludwick.”). In other instances, the Board found
Mr. Occhiogrosso credible on the very issue Ultratec
alleges he contradicted at trial. See J.A. 6383 (“We are
persuaded by Mr. Occhiogrosso’s testimony that a person of ordinary skill in the art would consider
McLaughlin to be disclosing a device capable of all of
the HCO/VCO features described therein.”); see also
J.A. 23, 27, 7403.
Ultratec moved for reconsideration on a variety of
grounds, including that the Board failed to consider
Mr. Occhiogrosso’s trial testimony and failed to explain
its decision to exclude the new evidence. See J.A. 6818–
20. The Board denied the motion to reconsider. It reasoned:
On November 4, 2014, after discovery and
briefing were complete and a month before
oral hearing, we held a conference call in
which we denied Patent Owner’s request for
authorization for a late submission of additional evidence. See 37 C.F.R. § 42.20(b) (“A
rehearing); J.A. 6383 (addressing the ’082 patent); -1713 appeal
J.A. 23, 24, 3262 (addressing the ’835 patent).

App. 77
motion will not be entered without Board authorization”); see also 37 C.F.R. § 42.123(b)
(explaining that the late submission of supplemental information must be in the interests of justice). Patent Owner argues that
the record is incomplete because we did not
issue an order denying its motion. Req. Reh’g
13–14. Patent Owner’s [sic] mischaracterizes
the events in this proceeding because no such
motion was denied; we denied Patent Owner’s
request for authorization to submit evidence
and, as such, no order denying its motion was
necessary. To the extent Patent Owner wishes
its denial of authorization to file late evidence
to be further memorialized, this paper serves
such purpose.
J.A. 6394–95 (emphasis in original).
Ultratec filed a motion to supplement the appellate record, requesting that the Board make part of the
record Ultratec’s request for authorization to file a motion to supplement the record with Mr. Occhiogrosso’s
trial testimony and the Board’s denial of that request.
J.A. 9002–03. The Board held that “the records would
be adequately supplemented” by adding only two documents: Ultratec’s motion for rehearing of the final
written decision, and the Board’s denial of that motion.
J.A. 9003. Ultratec then filed a second motion to supplement the appellate record. This time, Ultratec requested the Board include Ultratec’s October 30, 2014
email to the Board requesting a conference call to address its request for authorization to file a motion. The
Board denied the motion. It explained the “emails

App. 78
requesting conference calls are intended to be administrative in nature; it is improper for substantive arguments to be made in emails requesting conference
calls.” J.A. 9046 n.3.
Ultratec appealed to our court. The PTO intervened to defend the Board’s decision. We have jurisdiction pursuant to 28 U.S.C. § 1295(a)(4)(A).
DISCUSSION
We review the Board’s decision of how it manages
its permissive rules of trial proceedings for abuse of
discretion. Redline Detection, LLC v. Star Envirotech,
Inc., 811 F.3d 435, 442 (Fed. Cir. 2015). The Board
abuses its discretion if the decision: (1) is clearly unreasonable, arbitrary, or fanciful; (2) is based on an
erroneous conclusion of law; (3) rests on clearly erroneous fact findings; or (4) involves a record that contains
no evidence on which the Board could rationally base
its decision. Id. (quoting Abrutyn v. Giovanniello, 15
F.3d 1048, 1050–51 (Fed. Cir. 1994)).
Congress gave the PTO authority to “prescribe
regulations establishing procedures for the submission
of supplemental information after the petition is filed.”
35 U.S.C. § 316(a)(3). Under the PTO’s regulations, a
party seeking to submit supplemental information
more than one month after the date an IPR is instituted must request authorization to file a motion to
submit the information. 37 C.F.R. § 42.123(b). The request to submit new information must show: (1) why
the supplemental information reasonably could not

App. 79
have been obtained earlier, and (2) that consideration
of the supplemental information would be in the interests of justice. Id. The PTO considers the interests of
justice as slightly higher than good cause:
Good cause and interests-of-justice are closely
related standards, but the interests-of-justice
standard is slightly higher than good cause.
While a good cause standard requires a party
to show a specific factual reason to justify
the needed discovery, under the interests-ofjustice standard, the Board would look at all
relevant factors. Specifically, to show good
cause, a party would be required to make a
particular and specific demonstration of fact.
Under the interests-of-justice standard, the
moving party would also be required to show
that it was fully diligent in seeking discovery
and that there is no undue prejudice to the
non-moving party.
77 Fed. Reg. 48,719 (Aug. 14, 2012). The Board’s Patent
Trial Practice Guide explains that when a party desires to request authorization to file a motion, it
should institute a conference call with the Board. 77
Fed. Reg. 48,762–63 (Aug. 14, 2012). The Guide explains that:
Typically, the Board will decide procedural issues raised in a conference call during the call
itself or shortly thereafter, thereby avoiding
the need for additional briefing. The Board
has found that this practice simplifies a proceeding by focusing the issues early, reducing

App. 80
costs and efforts associated with motions that
are beyond the scope of the proceeding.
Id.
This record affords but one reasonable conclusion:
Ultratec satisfied both of § 42.123(b)’s requirements
for allowing Ultratec to file a motion to admit Mr.
Occhiogrosso’s trial testimony. First, the evidence
could not have been obtained earlier. Ultratec emailed
the Board requesting authorization to file a motion to
supplement the record the week after the jury trial
concluded. This is not evidence that could have been
located earlier through a more diligent or exhaustive
search; it did not exist during the IPR discovery period. The fact that Ultratec could have, but did not,
depose and obtain inconsistent testimony from Mr.
Occhiogrosso during the IPR itself is not a basis for
concluding otherwise. Ultratec argues that during
cross examination at trial in front of the jury Mr.
Occhiogrosso offered testimony that is inconsistent
with his IPR testimony. That inconsistent testimony
did not exist sooner and thus could not have been proffered to the Board sooner.
The Board offers no reasoned basis why it would
not be in the interest of justice to consider sworn inconsistent testimony on the identical issue. Ultratec
sought to offer recent sworn testimony of the same
expert addressing the same patents, references, and
limitations at issue in the IPRs. A reasonable adjudicator would have wanted to review this evidence. If
Mr. Occhiogrosso gave conflicting testimony on

App. 81
cross-examination, this would be highly relevant to
both the Board’s analysis of the specific issues on which
he gave inconsistent testimony and to the Board’s overall view of his credibility. Mr. Occhiogrosso’s testimony
was critical to the Board’s fact findings in this case, as
the opinions’ repeated reliance on it establishes. Under
such circumstances, no reasonable fact finder would refuse to consider evidence of inconsistent sworn testimony. Moreover, any such inconsistencies would likely
bear on the overall credibility of the expert.
Admitting and reviewing Mr. Occhiogrosso’s trial
testimony would have placed minimal additional burden on the Board. Live testimony is rare in IPR hearings, which typically last only about an hour. See 77
Fed. Reg. at 48,762. The Board—as it did in these
IPRs—makes credibility determinations based only on
written declarations. Ultratec sought to introduce
more written testimony. This is the exact type of evidence the Board routinely relies upon to determine
credibility. There would have been very little administrative burden to reviewing more on-point testimony
from the same expert on the same exact issues. Had
the testimony been inconsistent, a reasonable fact
finder would consider the inconsistencies. Had the testimony been consistent, the Board would not have had
to spend any more time on the issue.4
4

The PTO speculates on appeal that the Board denied the
request for authorization because it was too late in the proceedings to admit new evidence. PTO Br. 19. Section 42.123(b) expressly contemplates late submission of supplemental information
and articulates the two factors to be assessed in determining its

App. 82
A number of problems with the Board’s procedures
contributed to its errors in this case. First, the Board
lacked the information necessary to make a reasoned
decision. According to the Board, the movant cannot
submit for consideration the evidence it seeks to admit
into the record, and its briefing “must not include a discussion of the contents or types of the particular documents sought to be entered.” PTO Br. at 10 n.8. In this
case, the Board denied a request to admit evidence
without ever seeing the evidence it was denying; it
never reviewed Mr. Occhiogrosso’s testimony because
Ultratec was not allowed to submit that evidence with
its request to file a motion to supplement the record.
The Board’s only exposure to the disputed testimony
was the parties’ competing characterizations of it during the conference call for which there exists no record.
Second, the Board’s procedures allowed it to make
significant evidentiary decisions without providing an
explanation or a reasoned basis for its decisions. See
Motor Vehicle Mfs. Ass’n of U.S. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983) (“[T]he agency
must examine the relevant data and articulate a satisfactory explanation for its action including a rational
admissibility. It thus cannot be the case that the late filing alone
precludes consideration of the evidence. Ultratec requested to
supplement the record three weeks prior to the IPR hearings.
This would normally give the Board sufficient time to review the
supplemental testimony and prepare any necessary questions for
oral argument. Moreover, the same statute that imposes a oneyear deadline for the Board to make its final determination gives
it the ability to extend the deadline if good cause is shown. See 35
U.S.C. § 316(a)(11).

App. 83
connection between the facts found and the choice
made.” (internal quotation marks omitted)).
Third, the Board’s procedures impede meaningful
appellate review of the agency decision-making. “[W]e
will uphold a decision of less than ideal clarity if the
agency’s path may reasonably be discerned, but we
may not supply a reasoned basis for the agency’s action
that the agency itself has not given.” Rovalma, S.A. v.
Bohler-Edelstahl GmbH & Co., 856 F.3d 1019, 1024
(Fed. Cir. 2017) (internal quotation marks omitted).
“For judicial review to be meaningfully achieved
within these strictures, the agency tribunal must present a full and reasoned explanation of its decision.”
In re Lee, 277 F.3d 1338, 1342 (Fed. Cir. 2002). The
agency does not have unfettered discretion in these
matters, and we cannot affirm agency decision-making
where the agency fails to provide a reasoned basis for
its decision. See SEC v. Chenery Corp., 318 U.S. 80, 94
(1943) (“[T]he orderly functioning of the process of review requires that the grounds upon which the administrative agency acted b[e] clearly disclosed and
adequately sustained.”); SEC v. Chenery Corp., 332
U.S. 194, 196 (1947) (“That rule is to the effect that a
reviewing court, in dealing with a determination or
judgment which an administrative agency alone is authorized to make, must judge the propriety of such action solely by the grounds invoked by the agency. If
those grounds are inadequate or improper, the court is
powerless to affirm the administrative action by substituting what it considers to be a more adequate or
proper basis.”). There is no Board order explaining why

App. 84
it denied Ultratec’s request to file a motion to supplement the record. Nor is there any Board explanation
capable of review from the conference call.5 We are also
prohibited from viewing Mr. Occhiogrosso’s testimony
because it is not part of the record. In district court litigation, a party dissatisfied with a ruling excluding evidence is allowed to make an offer of proof to preserve
error. Fed. R. Evid. 103. Parties in IPRs are not given
similar protections.6 In this case, the PTO forbade even
a “discussion of the contents or types of the particular
documents sought to be entered.” PTO Br. at 10 n.8.
And it refused to permit the record to include Ultratec’s email requesting authorization to file a motion
to supplement the record. Excluding such discussion
from the record contributes to the unreviewability of
the Board’s decision-making.
CaptionCall and the PTO argue Ultratec bore the
responsibility to memorialize the conference call if it
5

The PTO indicated that the Board typically utilizes conference calls to address issues such as requests for extensions or requests to extend page limits. Oral Arg. at 54:45, 1:02:00. We do
not address whether the Board can decide these types of minor
procedural issues during conference calls. We hold that when the
Board makes a substantive evidentiary ruling, it is required to
explain its decision.
6
During oral argument, CaptionCall argued that although
Mr. Occhiogrosso’s trial testimony was not part of the IPR record,
it is publicly available as part of the district court record, and
therefore we could take judicial notice of the testimony and determine in the first instance whether it was consistent with his IPR
declarations. Oral Arg. at 40:30-43:25. Our court does not have
authority, as CaptionCall urges, to review evidence not considered by the agency and make factual determinations about the
substance of that evidence.

App. 85
desired a written record. CaptionCall Br. 28; PTO Br.
25. There are, however, no statutes, regulations, statements in the Patent Trial Practice Guide, nor even
notes on the PTO’s website informing parties that they
have the right to hire a stenographer to transcribe conference calls. We find no burden on the patentee to memorialize agency action or reasoning. It is the agency
that has the obligation to fulfill its APA duty to provide
a “satisfactory explanation for its action.” See Motor
Vehicle Mfs. Ass’n, 463 U.S. at 43.
The only reason there is any written record of the
dispute is because Ultratec raised the issue in a motion
for rehearing. The Board addressed the issue in its order denying rehearing, but it did not explain why it denied the request for authorization. See J.A. 6394–95.
The Board noted that a conference call occurred, but
it never stated what was discussed on the call. J.A.
6394. Nor did the Board address the substance of Mr.
Occhiogrosso’s trial testimony. Id. And although the
Board cited the interests of justice provision of 37
C.F.R. § 42.123(b), it never explained why its actions
were in the interests of justice. Id. The Board explained
that it was not obligated to provide an explanation in
the first place. The Board reasoned that “Patent Owner
argues that the record is incomplete because we did
not issue an order denying its motion. Req. Reh’g 13–
14. Patent Owner’s [sic] mischaracterizes the events in
this proceeding because no such motion was denied; we
denied Patent Owner’s request for authorization to
submit evidence and, as such, no order denying its motion was necessary.” Id. If the APA requires the Board

App. 86
to explain a denial of a motion then it likewise requires
the Board to explain the denial of a request to make a
motion. To the extent the Board views the two-step process it created to file motions as insulating it from its
APA obligations, this is incorrect.
The Board abused its discretion when it refused to
admit and consider Mr. Occhiogrosso’s trial testimony
and when it refused to explain its decision. Because the
Board relied on Mr. Occhiogrosso’s credibility in every
IPR, we vacate every decision. See In re Van Os, 844
F.3d 1359, 1362 (Fed. Cir. 2017) (“[W]hen the Board’s
action is potentially lawful but insufficiently or inappropriately explained, we have consistently vacated
and remanded for further proceedings.” (internal quotation marks omitted)). On remand, the Board shall
admit and consider Mr. Occhiogrosso’s trial testimony.
If the Board finds he gave inconsistent testimony, the
Board shall consider the impact on the specific patents
at issue in the trial testimony as well as on his credibility as a whole.
CONCLUSION
The Board’s final written decisions are vacated
and remanded.
VACATED AND REMANDED
COSTS
Costs to Ultratec.

App. 87
NOTE:

This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

ULTRATEC, INC.,
Appellant
v.
CAPTIONCALL, LLC,
Appellee
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Intervenor
-----------------------------------------------------------------------

2019-1998, 2019-1999, 2019-2001, 2019-2002
-----------------------------------------------------------------------

Appeals from the United States Patent and Trademark Office, Patent Trial and Appeal Board in Nos.
IPR2013-00540, IPR2013-00541, IPR2013-00544,
IPR2013-00545.
-----------------------------------------------------------------------

ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
-----------------------------------------------------------------------

(Filed Jan. 5, 2021)

App. 88
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellant Ultratec, Inc. filed a combined petition
for panel rehearing and rehearing en banc. The petition was referred to the panel that heard the appeal,
and thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on January 12,
2021.
FOR THE COURT
January 5, 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 89
NOTE:

This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

ULTRATEC, INC.,
Appellant
v.
CAPTIONCALL, LLC,
Appellee
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Intervenor
-----------------------------------------------------------------------

2019-2000, 2019-2005, 2019-2006
-----------------------------------------------------------------------

Appeals from the United States Patent and Trademark Office, Patent Trial and Appeal Board in Nos.
IPR2013-00542, IPR2013-00543, IPR2013-00550.
-----------------------------------------------------------------------

ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
-----------------------------------------------------------------------

(Filed Jan. 5, 2021)
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.

App. 90
PER CURIAM.
ORDER
Appellant Ultratec, Inc. filed a combined petition
for panel rehearing and rehearing en banc. The petition was referred to the panel that heard the appeal,
and thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on January 12,
2021.
FOR THE COURT
January 5, 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 91
NOTE:

This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

ULTRATEC, INC.,
Appellant
v.
CAPTIONCALL, LLC,
Appellee
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Intervenor
-----------------------------------------------------------------------

2019-2003, 2019-2004
-----------------------------------------------------------------------

Appeals from the United States Patent and Trademark Office, Patent Trial and Appeal Board in Nos.
IPR2013-00549, IPR2014-00780.
-----------------------------------------------------------------------

ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
-----------------------------------------------------------------------

(Filed Jan. 5, 2021)
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.

App. 92
PER CURIAM.
ORDER
Appellant Ultratec, Inc. filed a combined petition
for panel rehearing and rehearing en banc. The petition was referred to the panel that heard the appeal,
and thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on January 12,
2021.
FOR THE COURT
January 5, 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 93
U. S. Const. amend. V.
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a grand jury, except in cases arising in
the land or naval forces, or in the militia, when in actual service in time of war or public danger; nor shall
any person be subject for the same offense to be twice
put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for
public use, without just compensation.

App. 94
FEDERAL CIRCUIT RULE 36
Entry of Judgment
(a) Judgment of Affirmance Without Opinion.
The court may enter a judgment of affirmance
without opinion, citing this rule, when it determines that any of the following conditions exist
and an opinion would have no precedential value:
(1) the judgment, decision, or order of the trial
court appealed from is based on findings that
are not clearly erroneous;
(2) the evidence supporting the jury’s verdict is
sufficient;
(3) the record supports summary judgment, directed verdict, or judgment on the pleadings;
(4) the decision of an administrative agency warrants affirmance under the standard of review
in the statute authorizing the petition for review; or
(5) a judgment or decision has been entered without an error of law.
(b) Separate Judgment.
The clerk of court will not prepare a separate judgment when a case is disposed of by order without
opinion. The order of the court serves as the judgment when entered.

App. 95
28 U.S.C § 2071(a), enacted Nov. 19, 1988, Pub.L.
100-702, Title IV, § 403(a)(1), 102 Stat. 4650, provides:
(a) The Supreme Court and all courts established by
Act of Congress may from time to time prescribe rules
for the conduct of their business. Such rules shall be
consistent with Acts of Congress and rules of practice
and procedure prescribed under section 2072 of this
title.

35 U.S.C. § 6. Patent Trial and Appeal Board
(a) In General. – There shall be in the Office a Patent
Trial and Appeal Board. The Director, the Deputy Director, the Commissioner for Patents, the Commissioner for Trademarks, and the administrative patent
judges shall constitute the Patent Trial and Appeal
Board. The administrative patent judges shall be persons of competent legal knowledge and scientific ability who are appointed by the Secretary, in consultation
with the Director. Any reference in any Federal law,
Executive order, rule, regulation, or delegation of authority, or any document of or pertaining to the Board
of Patent Appeals and Interferences is deemed to refer
to the Patent Trial and Appeal Board.
(b) Duties. – The Patent Trial and Appeal Board
shall –
(1) on written appeal of an applicant, review adverse decisions of examiners upon applications for
patents pursuant to section 134(a);

App. 96
(2) review appeals of reexaminations pursuant
to section 134(b);
(3) conduct derivation proceedings pursuant to
section 135; and
(4) conduct inter partes reviews and post-grant
reviews pursuant to chapters 31 and 32.
(c) 3-Member Panels. – Each appeal, derivation proceeding, post-grant review, and inter partes review
shall be heard by at least 3 members of the Patent
Trial and Appeal Board, who shall be designated by the
Director. Only the Patent Trial and Appeal Board may
grant rehearings.
(d) Treatment of Prior Appointments. – The Secretary of Commerce may, in the Secretary’s discretion,
deem the appointment of an administrative patent
judge who, before the date of the enactment of this subsection, held office pursuant to an appointment by the
Director to take effect on the date on which the Director initially appointed the administrative patent judge.
It shall be a defense to a challenge to the appointment
of an administrative patent judge on the basis of the
judge’s having been originally appointed by the Director that the administrative patent judge so appointed
was acting as a de facto officer.

App. 97
35 U.S.C. § 141. Appeal to Court of Appeals for the
Federal Circuit
(a) Examinations. – An applicant who is dissatisfied
with the final decision in an appeal to the Patent Trial
and Appeal Board under section 134(a) may appeal the
Board’s decision to the United States Court of Appeals
for the Federal Circuit. By filing such an appeal, the
applicant waives his or her right to proceed under section 145.
(b) Reexaminations. – A patent owner who is dissatisfied with the final decision in an appeal of a reexamination to the Patent Trial and Appeal Board under
section 134(b) may appeal the Board’s decision only to
the United States Court of Appeals for the Federal Circuit.
(c) Post-Grant and Inter Partes Reviews. – A party to
an inter partes review or a post-grant review who is
dissatisfied with the final written decision of the Patent Trial and Appeal Board under section 318(a) or
328(a) (as the case may be) may appeal the Board’s decision only to the United States Court of Appeals for
the Federal Circuit.
(d) Derivation Proceedings. – A party to a derivation
proceeding who is dissatisfied with the final decision of
the Patent Trial and Appeal Board in the proceeding
may appeal the decision to the United States Court of
Appeals for the Federal Circuit, but such appeal shall
be dismissed if any adverse party to such derivation
proceeding, within 20 days after the appellant has filed
notice of appeal in accordance with section 142, files

App. 98
notice with the Director that the party elects to have
all further proceedings conducted as provided in section 146. If the appellant does not, within 30 days after
the filing of such notice by the adverse party, file a civil
action under section 146, the Board’s decision shall
govern the further proceedings in the case.

35 U.S.C.§ 144 – Current & Prior Versions
35 U.S.C. § 144, effective November 2, 2002, provides:
The United States Court of Appeals for the Federal
Circuit shall review the decision from which an appeal
is taken on the record before the Patent and Trademark Office. Upon its determination the court shall issue to the Director its mandate and opinion, which
shall be entered of record in the Patent and Trademark
Office and shall govern the further proceedings in the
case.
35 U.S.C.A. § 144, effective March 29, 2000 to November 1, 2002, provides:
The United States Court of Appeals for the Federal
Circuit shall review the decision from which an appeal
is taken on the record before the Patent and Trademark Office. Upon its determination the court shall issue to the Director its mandate and opinion, which
shall be entered of record in the Patent and Trademark
Office and shall govern the further proceedings in the
case.

App. 99
35 U.S.C.A. § 144, enacted Nov. 8, 1984, Pub.L. 98620, Title IV, § 414(a), 98 Stat. 3363, effective to
March 28, 2000, provides:
The United States Court of Appeals for the Federal
Circuit shall review the decision from which an appeal
is taken on the record before the Patent and Trademark Office. Upon its determination the court shall issue to the Commissioner its mandate and opinion,
which shall be entered of record in the Patent and
Trademark Office and shall govern the further proceedings in the case.

35 U.S.C. § 261. Ownership; assignment
Subject to the provisions of this title, patents shall
have the attributes of personal property. The Patent
and Trademark Office shall maintain a register of interests in patents and applications for patents and
shall record any document related thereto upon request, and may require a fee therefor.
Applications for patent, patents, or any interest herein,
shall be assignable in law by an instrument in writing.
The applicant, patentee, or his assigns or legal representatives may in like manner grant and convey an exclusive right under his application for patent, or
patents, to the whole or any specified part of the
United States.
A certificate of acknowledgment under the hand and
official seal of a person authorized to administer oaths
within the United States, or, in a foreign country, of a

App. 100
diplomatic or consular officer of the United States or
an officer authorized to administer oaths whose authority is proved by a certificate of a diplomatic or consular officer of the United States, or apostille of an
official designated by a foreign country which, by
treaty or convention, accords like effect to apostilles of
designated officials in the United States, shall be
prima facie evidence of the execution of an assignment,
grant or conveyance of a patent or application for patent.
An interest that constitutes an assignment, grant or
conveyance shall be void as against any subsequent
purchaser or mortgagee for a valuable consideration,
without notice, unless it is recorded in the Patent and
Trademark Office within three months from its date or
prior to the date of such subsequent purchase or mortgage.

35 U.S.C. § 282 – Current & Prior Versions
35 U.S.C. § 282(a), effective September 16, 2012, provides in pertinent part:
(a) In General. – A patent shall be presumed valid.
Each claim of a patent (whether in independent, dependent, or multiple dependent form) shall be presumed valid independently of the validity of other
claims; dependent or multiple dependent claims shall
be presumed valid even though dependent upon an invalid claim. The burden of establishing invalidity of a

App. 101
patent or any claim thereof shall rest on the party asserting such invalidity.
35 U.S.C.A. § 282, effective September 16, 2011 to
September 15, 2012, provides in pertinent part:
A patent shall be presumed valid. Each claim of a patent (whether in independent, dependent, or multiple
dependent form) shall be presumed valid independently of the validity of other claims; dependent or
multiple dependent claims shall be presumed valid
even though dependent upon an invalid claim. Notwithstanding the preceding sentence, if a claim to a
composition of matter is held invalid and that claim
was the basis of a determination of nonobviousness under section 103(b)(1), the process shall no longer be
considered nonobvious solely on the basis of section
103(b)(1). The burden of establishing invalidity of a patent or any claim thereof shall rest on the party asserting such invalidity.
35 U.S.C.A. § 282, effective November 2, 2002 to September 15, 2011, provides in pertinent part:
A patent shall be presumed valid. Each claim of a patent (whether in independent, dependent, or multiple
dependent form) shall be presumed valid independently of the validity of other claims; dependent or
multiple dependent claims shall be presumed valid
even though dependent upon an invalid claim. Notwithstanding the preceding sentence, if a claim to a
composition of matter is held invalid and that claim

App. 102
was the basis of a determination of nonobviousness under section 103(b)(1), the process shall no longer be
considered nonobvious solely on the basis of section
103(b)(1). The burden of establishing invalidity of a patent or any claim thereof shall rest on the party asserting such invalidity.
35 U.S.C.A. § 282, effective May 29, 2000 to November 1, 2002, provides in pertinent part:
A patent shall be presumed valid. Each claim of a patent (whether in independent, dependent, or multiple
dependent form) shall be presumed valid independently of the validity of other claims; dependent or
multiple dependent claims shall be presumed valid
even though dependent upon an invalid claim. Notwithstanding the preceding sentence, if a claim to a
composition of matter is held invalid and that claim
was the basis of a determination of nonobviousness under section 103(b)(1), the process shall no longer be
considered nonobvious solely on the basis of section
103(b)(1). The burden of establishing invalidity of a patent or any claim thereof shall rest on the party asserting such invalidity.
35 U.S.C.A. § 282, effective March 29, 2000 to May
28, 2000, provides in pertinent part:
A patent shall be presumed valid. Each claim of a patent (whether in independent, dependent, or multiple
dependent form) shall be presumed valid independently of the validity of other claims; dependent or

App. 103
multiple dependent claims shall be presumed valid
even though dependent upon an invalid claim. Notwithstanding the preceding sentence, if a claim to a
composition of matter is held invalid and that claim
was the basis of a determination of nonobviousness under section 103(b)(1), the process shall no longer be
considered nonobvious solely on the basis of section
103(b)(1). The burden of establishing invalidity of a patent or any claim thereof shall rest on the party asserting such invalidity.
35 U.S.C.A. § 282, enacted Nov. 1, 1995, Pub.L. 10441, § 2, 109 Stat. 352, effective to March 28, 2000,
provides in pertinent part:
A patent shall be presumed valid. Each claim of a patent (whether in independent, dependent, or multiple
dependent form) shall be presumed valid independently of the validity of other claims; dependent or
multiple dependent claims shall be presumed valid
even though dependent upon an invalid claim. Notwithstanding the preceding sentence, if a claim to a
composition of matter is held invalid and that claim
was the basis of a determination of nonobviousness under section 103(b)(1), the process shall no longer be
considered nonobvious solely on the basis of section
103(b)(1). The burden of establishing invalidity of a patent or any claim thereof shall rest on the party asserting such invalidity.

App. 104
35 U.S.C. § 311. Inter partes review
(a) In General. – Subject to the provisions of this
chapter, a person who is not the owner of a patent may
file with the Office a petition to institute an inter
partes review of the patent. The Director shall establish, by regulation, fees to be paid by the person requesting the review, in such amounts as the Director
determines to be reasonable, considering the aggregate
costs of the review.
(b) Scope. – A petitioner in an inter partes review
may request to cancel as unpatentable 1 or more
claims of a patent only on a ground that could be raised
under section 102 or 103 and only on the basis of prior
art consisting of patents or printed publications.
(c) Filing Deadline. – A petition for inter partes review shall be filed after the later of either –
(1) the date that is 9 months after the grant of a
patent; or
(2) if a post-grant review is instituted under
chapter 32, the date of the termination of such
post-grant review.

35 U.S.C. § 314. Institution of inter partes review
(a) Threshold. – The Director may not authorize an
inter partes review to be instituted unless the Director
determines that the information presented in the petition filed under section 311 and any response filed
under section 313 shows that there is a reasonable

App. 105
likelihood that the petitioner would prevail with respect to at least 1 of the claims challenged in the petition.
(b) Timing. – The Director shall determine whether
to institute an inter partes review under this chapter
pursuant to a petition filed under section 311 within 3
months after –
(1) receiving a preliminary response to the petition under section 313; or
(2) if no such preliminary response is filed, the
last date on which such response may be filed.
(c) Notice. – The Director shall notify the petitioner
and patent owner, in writing, of the Director’s determination under subsection (a), and shall make such notice available to the public as soon as is practicable.
Such notice shall include the date on which the review
shall commence.
(d) No Appeal. – The determination by the Director
whether to institute an inter partes review under this
section shall be final and nonappealable.

35 U.S.C. § 315. Relation to other proceedings or actions
(a)

Infringer’s Civil Action. –
(1) Inter partes review barred by civil action. –
An inter partes review may not be instituted if, before the date on which the petition for such a review is filed, the petitioner or real party in interest

App. 106
filed a civil action challenging the validity of a
claim of the patent.
(2) Stay of civil action. – If the petitioner or real
party in interest files a civil action challenging the
validity of a claim of the patent on or after the date
on which the petitioner files a petition for inter
partes review of the patent, that civil action shall
be automatically stayed until either –
(A) the patent owner moves the court to lift
the stay;
B) the patent owner files a civil action or
counterclaim alleging that the petitioner or
real party in interest has infringed the patent;
or
(C) the petitioner or real party in interest
moves the court to dismiss the civil action.
(3) Treatment of counterclaim. – A counterclaim
challenging the validity of a claim of a patent does
not constitute a civil action challenging the validity of a claim of a patent for purposes of this subsection.
(b) Patent Owner’s Action. – An inter partes review
may not be instituted if the petition requesting the proceeding is filed more than 1 year after the date on
which the petitioner, real party in interest, or privy of
the petitioner is served with a complaint alleging infringement of the patent. The time limitation set forth
in the preceding sentence shall not apply to a request
for joinder under subsection (c).

App. 107
(c) Joinder. – If the Director institutes an inter partes
review, the Director, in his or her discretion, may join
as a party to that inter partes review any person who
properly files a petition under section 311 that the Director, after receiving a preliminary response under
section 313 or the expiration of the time for filing such
a response, determines warrants the institution of an
inter partes review under section 314.
(d) Multiple Proceedings. – Notwithstanding sections
135(a), 251, and 252, and chapter 30, during the pendency of an inter partes review, if another proceeding
or matter involving the patent is before the Office, the
Director may determine the manner in which the inter
partes review or other proceeding or matter may proceed, including providing for stay, transfer, consolidation, or termination of any such matter or proceeding.
(e)

Estoppel. –
(1) Proceedings before the Office. – The petitioner in an inter partes review of a claim in a patent under this chapter that results in a final
written decision under section 318(a), or the real
party in interest or privy of the petitioner, may not
request or maintain a proceeding before the Office
with respect to that claim on any ground that the
petitioner raised or reasonably could have raised
during that inter partes review.
(2) Civil actions and other proceedings. – The petitioner in an inter partes review of a claim in a
patent under this chapter that results in a final
written decision under section 318(a), or the real
party in interest or privy of the petitioner, may not

App. 108
assert either in a civil action arising in whole or in
part under section 1338 of title 28 or in a proceeding before the International Trade Commission
under section 337 of the Tariff Act of 1930 that the
claim is invalid on any ground that the petitioner
raised or reasonably could have raised during that
inter partes review.

35 U.S.C. § 316. Conduct of inter partes review
(a) Regulations. – The Director shall prescribe regulations –
(1) providing that the file of any proceeding under this chapter shall be made available to the
public, except that any petition or document filed
with the intent that it be sealed shall, if accompanied by a motion to seal, be treated as sealed pending the outcome of the ruling on the motion;
(2) setting forth the standards for the showing of
sufficient grounds to institute a review under section 314(a);
(3) establishing procedures for the submission of
supplemental information after the petition is
filed;
(4) establishing and governing inter partes review under this chapter and the relationship of
such review to other proceedings under this title;
(5) setting forth standards and procedures for
discovery of relevant evidence, including that such
discovery shall be limited to –

App. 109
(A) the deposition of witnesses submitting
affidavits or declarations; and
(B) what is otherwise necessary in the interest of justice;
(6) prescribing sanctions for abuse of discovery,
abuse of process, or any other improper use of the
proceeding, such as to harass or to cause unnecessary delay or an unnecessary increase in the cost
of the proceeding;
(7) providing for protective orders governing the
exchange and submission of confidential information;
(8) providing for the filing by the patent owner of
a response to the petition under section 313 after
an inter partes review has been instituted, and requiring that the patent owner file with such response, through affidavits or declarations, any
additional factual evidence and expert opinions on
which the patent owner relies in support of the response;
(9) setting forth standards and procedures for allowing the patent owner to move to amend the patent under subsection (d) to cancel a challenged
claim or propose a reasonable number of substitute claims, and ensuring that any information
submitted by the patent owner in support of any
amendment entered under subsection (d) is made
available to the public as part of the prosecution
history of the patent;
(10) providing either party with the right to an
oral hearing as part of the proceeding;

App. 110
(11) requiring that the final determination in an
inter partes review be issued not later than 1 year
after the date on which the Director notices the institution of a review under this chapter, except
that the Director may, for good cause shown, extend the 1-year period by not more than 6 months,
and may adjust the time periods in this paragraph
in the case of joinder under section 315(c);
(12) setting a time period for requesting joinder
under section 315(c); and
(13) providing the petitioner with at least 1 opportunity to file written comments within a time
period established by the Director.
(b) Considerations. – In prescribing regulations under this section, the Director shall consider the effect
of any such regulation on the economy, the integrity of
the patent system, the efficient administration of the
Office, and the ability of the Office to timely complete
proceedings instituted under this chapter.
(c) Patent Trial and Appeal Board. – The Patent Trial
and Appeal Board shall, in accordance with section 6,
conduct each inter partes review instituted under this
chapter.
(d)

Amendment of the Patent. –
(1) In general. – During an inter partes review
instituted under this chapter, the patent owner
may file 1 motion to amend the patent in 1 or more
of the following ways:

App. 111
(A)

Cancel any challenged patent claim.

(B) For each challenged claim, propose a reasonable number of substitute claims.
(2) Additional motions. – Additional motions to
amend may be permitted upon the joint request of
the petitioner and the patent owner to materially
advance the settlement of a proceeding under section 317, or as permitted by regulations prescribed
by the Director.
(3) Scope of claims. – An amendment under this
subsection may not enlarge the scope of the claims
of the patent or introduce new matter.
(e) Evidentiary Standards. – In an inter partes review instituted under this chapter, the petitioner shall
have the burden of proving a proposition of unpatentability by a preponderance of the evidence.

35 U.S.C. § 319. Appeal
A party dissatisfied with the final written decision of
the Patent Trial and Appeal Board under section
318(a) may appeal the decision pursuant to sections
141 through 144. Any party to the inter partes review
shall have the right to be a party to the appeal.

App. 112
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
Ultratec, Inc. and
CapTel, Inc.
Plaintiffs,

JUDGMENT IN A
CIVIL CASE
(Filed Nov. 3, 2014)

v.
Sorenson Communications,
Inc. and CaptionCall, LLC

Case No. 13-cv-346-bbc

Defendants.
This action came before the court and a jury with
U.S. District Judge Barbara B. Crabb presiding. The
issues have been tried and the jury has rendered its
verdict.
IT IS ORDERED AND ADJUDGED that judgment is entered in favor of plaintiffs on the Jury Verdict of Liability with respect to infringement of claims
6 of the ‘482 patent, claims 1 and 2 of the ‘314 patent,
claim 1 of the ‘346 patent, claims 7 and 8 of the ‘835
patent, claim 2 of the ‘740 patent and claim 2 of the
‘104 patent. Damages are awarded in the amount of
$44,126,822.00.
On October 23, 2014, the Court granted defendants’ motion for judgment of no willful infringement as
a matter of law.

App. 113
On October 1, 2014, the Court dismissed plaintiffs’
claims that defendants induced infringement of claims
l-8 of the ‘835 patent and claim 2 of the ‘740 patent.
On August 28, 2014, the Court granted partial
summary judgment in favor of plaintiffs with respect
to: direct infringement of claim1 of the ‘482 patent,
claims 7 and 8 of the ‘578 patent and claim 1 of the ‘082
patent; nonanticipation of the ‘082, ‘740 and ‘578 patents by the ‘835 patent (Engelke ‘685); nonanticipation of the ‘314, ‘835, ‘740, ‘104 and ‘578 patents by the
McLaughlin and Liebermann references; nonanticipation of the patents-in-suit by the Engelke ‘482 (the ‘482
patent), Wycherly, Vasile, Gopalakrishnan, Bowater,
Sharman and Engelke ‘405 references; invalidity of
claims 3-6, 8 and 10-29 of the ‘801 patent; and defendants’ counterclaim of breach of contract.
On August 28, 2014, the Court granted partial
summary judgment in favor of defendants with respect
to plaintiffs’ claims of literal infringement of claim 2 of
the ‘104 patent; contributory infringement; and presuit damages for the ‘082, ‘104 and ‘314 patents.
Approved as to form this 29th day of October, 2014.
/s/ Barbara B. Crabb
Barbara B. Crabb,
U.S. District Judge
/s/ Peter Oppeneer
Peter Oppeneer, Clerk of Court

11/3/14
Date

App. 114
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
ULTRATEC, INC. and
CAPTEL, INC.,
Plaintiffs,

SPECIAL VERDICT:
LIABILITY
(Filed Oct. 23, 2014)

v.
SORENSON COMMUNICATIONS, INC. and CAPTIONCALL, LLC,

13-cv-346-bbc

Defendants.
We, the jury, for our special verdict, find as follows:
Infringement
Question No. 1: Did defendants literally infringe
any of the following asserted patent claims?
Answer “Yes” or “No” for each claim.
Patent Claim
Claim 6 of the ‘482 Patent

YES
🗸

Claim 1 of the ‘314 Patent
Claim 2 of the ‘314 Patent

🗸
🗸

NO

App. 115
Patent Claim
Claim 1 of the ‘346 Patent

YES
🗸

Claim 7 of the ‘835 Patent
Claim 8 of the ‘835 Patent

🗸
🗸

Claim 2 of the ‘740 Patent

🗸

NO

If you answered “Yes” with respect to any claim,
then in answering Question No. 2, do not answer Question No. 2 with respect to those claims. If you answered
“No” with respect to claim 6 of the ‘482 patent, claim 1
of the ‘314 patent or claim 2 of the ‘314 patent, answer
Question No. 2 with respect to those claims.
Question No. 2: Did defendants infringe any of
the following asserted patent claims under the doctrine of equivalents?
Patent Claim
Claim 6 of the ‘482 Patent

YES
🗸

Claim 1 of the ‘314 Patent
Claim 2 of the ‘314 Patent

🗸
🗸

NO

Regardless how you answered any of the above
questions, answer Question No. 3.
Question No. 3: Did defendants infringe claim 2
of the ’104 patent under the doctrine of equivalents?
yes
Answer “Yes” or “No”

App. 116
Invalidity—Anticipation
Question No. 4: Are any of the following patent
claims invalid as anticipated?
Answer “Yes” or “No” for each claim.
Patent Claim
Claim 1 of the ‘482 Patent

YES

NO
🗸

Claim 1 of the ‘314 Patent
Claim 2 of the ‘314 Patent

🗸
🗸

Claim 1 of the ‘082 Patent

🗸

Claim 7 of the ‘578 Patent

🗸

Invalidity—Obviousness
Question No. 5: Are any of the following patent
claims invalid because they were obvious to one of ordinary skill in the field of invention?
Answer “Yes” or “No” for each claim.
Patent Claim
Claim 1 of the ‘482 Patent
Claim 6 of the ‘482 Patent

YES

NO
🗸
🗸

Patent Claim
Claim 1 of the ‘314 Patent
Claim 2 of the ‘314 Patent

YES

NO
🗸
🗸

Claim 1 of the ‘346 Patent

🗸

App. 117

Claim 7 of the ‘835 Patent
Claim 8 of the ‘835 Patent

🗸
🗸

Claim 1 of the ‘082 Patent

🗸

Claim 2 of the ‘740 Patent

🗸

Claim 2 of the ‘104 Patent

🗸

Claim 7 of the ‘578 Patent
Claim 8 of the ‘578 Patent
Claim 11 of the ‘578 Patent

🗸
🗸
🗸

Regardless how you answered any of the above questions, sign and date this form.
/s/ Rebecca L. Luckus
Presiding Juror
Madison, Wisconsin
Date: 10/23/14

App. 118
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
ULTRATEC, INC. and
CAPTEL, INC.,

SPECIAL VERDICT:
DAMAGES

Plaintiffs,

(Filed Oct. 24, 2014)

v.
SORENSON COMMUNICATIONS, INC. and CAPTIONCALL, LLC,

13-cv-346-bbc

Defendants.
We, the jury, for our special verdict, find as follows:
Question No. 1: What amount have plaintiffs
proven by a preponderance of the evidence that defendants should pay as a reasonable royalty for their infringement?
$ 44,126,822.00
/s/ Jeffrey Farnsworth
Presiding Juror
Madison, Wisconsin
Date: 10/24/2014

App. 119
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
- - - - - - - - - - - - - - - - - - - - - - - - -X
: Case Nos.
ULTRATEC, INC.,
: 2019-1998
Appellant,
: 2019-2000
v.
:
2019-2003
CAPTIONCALL, LLC,
:
: Appeals from the
Appellee,
US Patent Office,
:
ANDREI IANCU, UNDERPatent Trial
SECRETARY OF COMMERCE : Appeal Board Nos.
:
FOR INTELLECTUAL
IRP2013-00540
PROPERTY AND DIRECTOR :
OF THE UNITED STATES
: IRP2013-00542
PATENT AND TRADEMARK : IRP2013-00549
OFFICE,
:
Intervenor.
:
- - - - - - - - - - - - - - - - - - - - - - - - -X
ORAL ARGUMENT
Washington, DC
Friday, October 9, 2020
Job No.:
Pages:

376384
1 – 57

Transcribed by:

Molly Bugher

Oral arguments held October 9, 2020 before:
THE HONORABLE KIMBERLY A. MOORE
Chief Circuit Judge

App. 120
THE HONORABLE ALAN D. LOURIE
Circuit Judge
THE HONORABLE SHARON PROST
Circuit Judge
APPEARANCES
ON BEHALF OF THE APPELLANT:
KRISTIN GRAHAM NOEL, ESQUIRE
MARTHA JAHN SNYDER, ESQUIRE
ANTHONY ALLEN TOMASELLI, ESQUIRE
QUARLES & BRADY, LLP
33 E. Main Street, Suite 990
Madison, Wisconsin 53703
Phone: 608-251-5000
ON BEHALF OF THE APPELLEE:
PRATIK A. SHAH, ESQUIRE
Z.W. JULIUS CHEN, ESQUIRE
RACHEL J. ELSBY, ESQUIRE
AKIN GUMP STRAUSS HAUER & FELD LLP
Robert S. Strauss Tower
2001 K. Street, NW
Washington, DC 20006-1037
Phone: 202-887-4000
ON BEHALF OF THE APPELLEE:
MICHAEL P. KAHN, ESQUIRE
CAITLIN ELIZABETH OLWELL, ESQUIRE
MICHAEL NASSER PETEGORSKY, ESQUIRE
AKIN GUMP STRAUSS HAUER & FELD LLP
One Bryant Park
Bank of America Tower
New York, New York 10036-6745
Phone: 212-872-1000

App. 121
RUBEN H. MUNOZ, ESQUIRE
AKIN GUMP STRAUSS HAUER & FELD LLP
Two Commerce Square
2001 Market Street, Suite 4100
Philadelphia, Pennsylvania 19102-7013
Phone: 215-956-1200
ON BEHALF OF THE INTERVENOR:
FRANCES LYNCH, ESQUIRE
THOMAS W. KRAUSE, ESQUIRE
FARHEENA YASMEEN RASHEED, ESQUIRE
MOLLY R. SILFEN, ESQUIRE
Office of the Solicitor
United States Patent and Trademark Office
600 Dulany Street
Alexandria, Virginia 22314
Phone: 571-272-9035
CONTENTS
ARGUMENT

PAGE

By Ms. Noel

7, 53

By Mr. Shah

25

By Ms. Lynch

46
[7] PROCEEDINGS

THE COURT OFFICER: The United States
Court of Appeals for the Federal Circuit is now open
and in session. God save the United States and this
Honorable Court.
JUDGE MOORE: Good morning. We begin
this morning with three cases which have been

App. 122
consolidated for argument today. They are 19-1998,
Ultratec vs. CaptionCall, 19-2000, Ultratec vs.
CaptionCall, and 19-2003, Ultratec vs. CaptionCall.
Ms. Noel, whenever you’re ready.
MS. NOEL: Thank you, Your Honor, and
may it please the Court, Kristin Noel on behalf of
Ultratec. At issue in these appeals is ability of eight
patents that collectively cover the invention of captioned telephone and service. This was not an incremental improvement to a widget, but the invention
of –
JUDGE LOURIE: Ms. Noel, this is Judge
Lourie. Am I correct that what you have is a limited
remand on the question of whether Mr. [8]
Occhiogrosso’s trial testimony and his Board testimony were inconsistent. And the Board decided that
there was no inconsistency. And isn’t that the end of
your cases?
MS. NOEL: Your Honor, we were on a limited remand, but that is not the end to our cases because this Court has never in the first instance
addressed our appellate argument. Only –
JUDGE LOURIE: In other words, there is
something yet to be decided. But these other issues in
your briefs are really not before us, are they not?
MS. NOEL: Respectfully, Your Honor, I disagree. All of the issues are properly before the Court.
And the only issues that weren’t in our original brief
are not outside the mandate because the mandate rule

App. 123
doesn’t preclude issues that could not had been raised
either below before the final written decision or as part
of our first appeal.
So for example, all of the patents in [9] this case
have expired. They been expired for three years now.
But that expiration happened after this Court heard
the last appeal.
So when the patents were remanded back down to
the Board, it was incumbent upon the Board before reissuing final written decision to construe the patents
under Phillips. If the Court disagrees with us on that,
certainly, as this Court’s president has been when this
Court hears an appeal from a final written decision
when the patents expire even post final written decision claims construction must be done using the
Philips standard.
JUDGE LOURIE:
MS. NOEL:

Proceed.

Thank you, Your Honor. So –

JUDGE MOORE: Counsel, this is Judge
Moore. As a housekeeping matter before you get into
the details of your claim construction argument, can I
ask you about these constitutional arguments? You
sort of basically said everything is unconstitutional.
So we’re [10] throwing in every provision I can think
of.
My question is, aren’t most of your arguments, if
not all of them, already resolved by this Court, for example, by the case of Celgene or OSI Pharm? Are
these things that are properly before this panel for

App. 124
resolution by this panel? Or are you making these arguments to preserve them in an attempt to seek en
banc review?
MS. NOEL: It would be the latter, Your
Honor. We certainly acknowledge that the Court has
issued decisions like the Celgene decision before and
you’ve subsequently sent – our briefs that have been
filed have reaffirmed that standard. And so Ultratec
makes its arguments to preserve them either for en
banc review or a petition to the Supreme Court. But
we do acknowledge this Court has decided the constitutional issues.
JUDGE PROST:

Thank you. Please proceed.

MS. NOEL: Thank you. Reflective of [11]
these inventions six years ago, a jury found the asserted claims valid and infringed by the Petitioner
awarding Ultratec and its affiliate CapTel $44.1 million in damages, a judgment that was later stayed.
Ultratec raises a number of issues with the Board’s
handling of the IPRs.
Time permitting, I would like to cover two. Objective indicia of nonobviousness and more specifically,
the proof of actual nexus, the direct proof to the
claimed inventions and their benefits as that is pertinent to claims in seven of the patents, and the construction and the application of train to the voice of the
call assistant because that term is recited in six of the
patents.

App. 125
But for all of our issues on appeal, those two included, we note that the Board did not act as a neutral,
but rather advocated for invalidity including in almost
every single issue, making decisions based on arguments that the petitioner itself did not advocate below.
And that practice was squarely rejected by this [12]
Court in SAS and (inaudible) rule.
Turning to objective indicia; Ultratec presented
strong evidence that the inventions themselves and
the direct benefits that they conferred, which this
Court ruled in Rambus v. Rea is appropriate to consider with secondary considerations, but they received
overwhelming praise by consumers, by the industry;
they also met the needs of the deaf and hard of hearing
community and they were a tremendous commercial
success.
We demonstrated nexus by having our technical
expert review the patent, explain the claim features on
the benefits that they – use of those inventions conferred. He also provided undisputed evidence of how
CapTel embodied the invention. Mr. Ludwick testified
as to the tremendous commercial success that CapTel
achieved and how the features and the benefits drove
that success.
Importantly, this testimony was corroborated by
hard of hearing advocates Brenda [13] Patat (phonetic)
and Connie Phelps, who provided evidence of what the
consumers themselves said contemporaneously about
the demand, not just for CapTel generally, but for the

App. 126
specific features and benefits identified by Mr. Ludwick.
JUDGE MOORE: Well Counsel, do we review this question first, substantial evidence; is that
correct?
MS. NOEL:

That’s correct, Your Honor.

JUDGE MOORE: And didn’t CapTel point
out that Mr. Occhiogrosso testified that he – it was
his opinion that unclaimed features or prior art features are what drove CapTel’s actual sales? And that
Ultratec’s initial dominant market position and
growth of the hard of hearing industry, hard of hearing
population, drove the commercial success?
So didn’t the Board have in front of it expert testimony that contradicted your expert in terms of
whether or not it was the claimed features as opposed
to unclaimed, or prior art features, which actually resulted in a secondary [14] consideration of evidence
that you presented?
MS. NOEL: Respectfully, Your Honor, I will
disagree. They didn’t actually provide any affirmative
evidence, Mr. Occhiogrosso. He just tried to point out
what he believed Mr. Ludwick did and did not consider.
And Mr. Ludwick’s declaration somewhat belies that
he did look at unclaimed features and compared them
to the claimed features and explained why they drove
success.
CaptionCall also pointed to something, for example, that it entered the market and minutes of use went

App. 127
up. But what they failed to recognize, is that a jury
found that their product and service infringed all eight
of these patents. So that doesn’t undercut commercial
success, it in fact bolsters it.
Patat and Phelps reviewed hundreds of comments
that consumers submitted to the FCC advocating that
the FCC make captioned telephone a compensable service so they could continue to use captioned telephone.
These comments were not [15] just that CapTel was
life-changing, and many of them reflect that, but they
identified specifically what it was about the product
and service that change their lives.
The speed and accuracy of the caption, which we
know is afforded by revoicing. The naturalness of the
call afforded by having the ability to use their own
voice on the phone, use whatever visual hearing they
had, and to have the captions help keep up with the
conversation. That is the method of providing captioned telephone service with voice and revoice text.
And they also had, and complemented the ability
to have others call them directly instead of having to
call a relay on a different number. And the security
that they could know that they could call 911 and not
have to choose between having captions so they can understand the operator, or have the 911 operator lose
their location. As Mr. Ludwick confirmed, this was the
result of the two line functionality with captioned telephone.
[16] Now we know why CapTel was commercially
successful, because the consumers themselves told us.

App. 128
Patat and Phelps also testified how these specific benefits met the long felt needs of the deaf and hard of
hearing community. Indeed, Ms. Patat testified how
CapTel was quote, life-changing; quote, life altering
and life-saving.
JUDGE MOORE: Counsel, one of the problems the Board seems to have had – I mean, you are
pointing to a lot of evidence right now. But one of the
problems the Board seems to have had is that it said,
for example on page 118, that your response itself contains none of these arguments.
At one point, and I don’t remember where in the
Board’s opinion, they said you pointed to like 137 pages
of declaration as though we, the Board, are supposed
to go on some fishing expedition looking for the kernels
of evidence that may or may not substantiate your argument.
And so what the Board – even if there [17] were
evidence in the record that you are now pointing to, if
you hadn’t pointed to that evidence with particularity
to the Board and if their concern was your allegations
as argued to them were conclusory and you just
dumped tons of evidence on them without particularity
or pointing to anything specific, should we really fault
them?
Should we reverse them under those circumstances? The fact that you now step in here and are
making a much better argument to us than you made
to them, is that a basis for us to reverse them?

App. 129
MS. NOEL: Yes, Your Honor. And I do take
issue with the Board’s characterization of the presentment of the evidence. In some of the responses, secondary considerations detail 13 pages of arguments and
summary of the evidence. We can’t – could not have
possibly put all of the evidence of secondary consideration into the brief.
But we made the arguments and we cited [18] to
the declaration. And if you review the declaration, they
are actually not that voluminous, but collectively there
are three. And they are very well set out with headings
and subheadings and they give actual evidence and detail to support the argument which is made in the response.
And the Board said that it wants – and it considered this evidence. And its real justification for not giving it any weight was this claim of lack of embodiment.
Embodiment wasn’t disputed by CapTel. Let me be
clear about this. Of the 37 claims across the eight patents, CaptionCall did not present, even though they
had two experts, did not present evidence of a single
element of any of those 37 claims that they assert was
not embodied in the CapTel phone.
So the Board took it upon itself, acted as an advocate on an argument not made by CapTel. And that is
something that violates the In Re Magnum precedent
from this court.
JUDGE MOORE: Well, who had the burden
[19] on – who had the burden on that question? Either
the burden of production or the burden of persuasion

App. 130
on that to show the connection, the nexus being drawn
between the second consideration and the (inaudible)?
MS. NOEL:

We – I’m sorry, Your Honor.

JUDGE MOORE:

Oh, go ahead.

MS. NOEL: We have the burden of showing
nexus. And as this Court has observed in Polaris and
other cases, when we present undisputed evidence that
the other side does not dispute and does not present
any evidence to contradict, is an error of the Board to
disregard it.
Moving on to train to the voice of the call assistant,
our argument JUDGE MOORE: I’m sorry. Can I just get a
– sort of a logistical question? And that is the argument you just made with respect to secondary consideration, does that apply equally to each of the three
separate appeals we’ve got in front of us?
[20] MS. NOEL:
JUDGE MOORE:

Yes, Your Honor.
Okay, thank you.

MS. NOEL: And in fact, I will note the last
appeal on claim six and eight of the 835 patent, the
Board actually did, not only deny nexus, but also held
that the minutes of use were not captioned telephone
service because they looked at the FCC’s minute data,
saw the words CTS VCO and assumed – took it upon
themselves to say that was the prior art. And so they
discounted commercial success. That was an argument

App. 131
once again not made by CaptionCall because it is not
true.
JUDGE MOORE: Counsel, you suggested
that the Board erred in response to my prior question
when it said, Patent owner’s response contains no substantive argument, instead Patent Owner merely lists
various common forms of secondary consideration evidence without expedition.
Can you tell me where in the appendix I can find
Patent Owner’s response? And in [21] particular where
ln that response you believe that you had, ln a detailed
fashion, articulated the arguments the Board should
have addressed?
MS. NOEL: Yes, Your Honor. For example in
the 2003 (inaudible).
JUDGE MOORE:
pendix number for me.

You have to say it by ap-

MS. NOEL: Yes, Your Honor, but we have
three appendices. So in 2003, I would look for example
at appendix 512 and then I would also look at appendix
– starting at 4124, 4125, and it goes on for some 13
pages outlining the evidence.
JUDGE MOORE:

Okay. I don’t –

MS. NOEL: On train to the voice, Your
Honor, I think our conception is fairly well laid out in
our brief. I will say that, so it doesn’t get lost in the
briefing, the most important for the Court to consider
when looking at the single lone sentence in Ryan is to

App. 132
understand what was the state of the art of voice recognition software at the time of the invention.
And specifically I would direct the [22] Court to
appendix 3131, which is from the McAllister patent in
the 2000 case, Your Honor with –
(Technical problem; missing audio)
Thank you, Your Honor. In the 2003 appendix for
example, I would direct the Court to appendix 511
through 513 and pertinently on page 12. I would go direct the Court to appendix 4214 through 37. And –
JUDGE MOORE:
MS. NOEL:

I can (inaudible).

Thank you.

THE COURT:

Okay, thank you.

MS. NOEL: I’m sorry, Your Honor. I misread
it. It’s 4124 through 4137.
Turning to train to the voice, which is claim term
used in six of the patents, I think the claims construction, particularly now that we are on the Philips standard, is very clear and direct. The only issue with the
Board –
JUDGE MOORE: Counsel, I’m sorry to derail you, but we can’t find any document with the page
number 4124 to 4137 in the 03 appendix. [23] I’m trying to actually look carefully at what you’re telling me
to look at, but I don’t see those documents.

App. 133
MS. NOEL: My apologies, Your Honor. I’m
looking at a Bates stamped copy, which is the Patent
Owner response from patent number 6603835, which
is one of the patents at issue. And I will have my colleague double check the record if – with leave of Court
I’ll move on.
On train to the voice under the Phillips standard
in particular, the Board’s holding that train to the voice
of the call assistant can mean train to the voice of a
group is clearly erroneous. The only basis the Court
gave for this is a lone recitation of a line ln the patent
that refers to train to the voice of the voice pattern of
the call assistant.
Once again, this is an argument that was not presented by CaptionCall. The Board took it upon itself to
make this argument. But it also holds no water. It
plainly refers to a single call system. Mr. Occhiogrosso
himself [24] construed this to refer to a single call assistant.
Moving on to Ryan, what I don’t like –
JUDGE MOORE: Wait, before you move on,
I need to understand something. Are you suggesting
that the Board isn’t permitted to look at the claim language or the specification and come to its own conclusion if the opposing party didn’t make that specific
argument? I mean, the term is in dispute. So isn’t the
Board supposed to look to the intrinsic record to understand the meaning of the term?

App. 134
MS. NOEL: Certainly the Board should look
at the intrinsic record, but I do believe that it’s this
Court’s precedents that in IPRs ln particular that the
Board is not to take it upon itself to make arguments
and hold positions that the petitioner itself has not put
forward. I believe that in the In Re: Magnum decision.
Also it’s just – it’s plainly wrong. Their expert agrees.
Our expert agrees.
And if you read the specification in [25] this patent, you cannot walk away with the understanding
that this means trained, much less designed to a group
of call assistants. The patent itself teaches that it is a
limitation of the software that you that you have to use
voice recognition software that is trained to the voice
of the particular call assistant.
So the reference that is cited against us, the Ryan
reference, has a lone sentence designed to recognize
the voice of the particular relay agent. And I think in
light of the lack of exposition ln Ryan we need to read
that literally. And very importantly, we have to understand the state of the art at the time.
JUDGE MOORE: But when you look at
things like the 314 patent column 2, lines 45 to 49, it
says, speech recognition computer program trained to
the voice pattern of the call assistant. And then it gives
an e.g., an accent. So I mean, I’m not going to suggest
that all Southerners speak with the exact same accent,
but certainly more than one person – I’m from [26] Baltimore and everyone in my family says it with a D instead of a T, it’s an accent. So why isn’t that relevant?

App. 135
MS. NOEL: Your Honor, with respect, and I
turned to the 314 patent and it doesn’t say e.g. accent.
It says, trained to the voice pattern of the call assistant. I have a voice pattern. Your Honor as a voice pattern. Mr. Shah has a voice pattern. We all have voice
patterns.
That certainly cannot, just because a group can
have a shared voice pattern – and I would agree with
you that a group can have a shared voice pattern. You
can’t trump the teaching of the specifications, which it
is limited to that speech recognition software like
Dragon Naturally Speaking. But the word “pattern”
doesn’t mean a group.
Now very importantly, there was also at the time
voice recognition software as Your Honor described. It
was not speaker dependent, meaning you couldn’t take
it off the shelf and have it [27] learn your particular
voice. It was hardcoded, but it was coded to recognize
the shared, singular voice of a group of people like an
accent, like Your Honor just recognized.
And if you look, for example, in the 2000 –
JUDGE

LOURIE:

Please

finish

your

thought.
MS. NOEL: Thank you. If you look at the
McAllister reference found in the 2000 appendix at
3123 through 3137, and in particular at column four,
lines 58 through 67, you will see a description of existing (inaudible) speech recognition technology, which
included universal, which is speaker independent voice

App. 136
recognition software created using speech models for
samples of accents.
And ln particular the line, for example, if the models are created using speech samples from New
Englanders, then the model will tend to exclude voices
with southern accents or voices with Hispanic accidents. That is voice [28] recognition software that is designed to recognize the singular voice of multiple
people. That is literally what is the line disclosure in
Ryan. Thank you, Your Honor.
JUDGE LOURIE: Thank you. We’ll reserve
the remainder of your time for rebuttal. And it’s time
to hear from Mr. Shah.
MR. SHAH: May it please the Court, Patek
Shah for Appellee, CaptionCall. The last time these
appeals were before this Court, Ultratec secured a remand in an attempt to discredit CaptionCall’s expert,
Mr. Occhiogrosso, but that gambit failed. Occhiogrosso’s
expert testimony, according to Utratec itself, provided
material evidentiary support for the PTAB’s unpatentability determinations.
Now that the PTAB is squarely reaffirmed the consistency and credibility of that testimony, Ultratec can
no longer plausibly argue a lack of substantial evidence underlying the unpatentability determination.
This Court –
JUDGE MOORE: Counsel, in the final [29]
remand – this is Judge Moore. In the final reman, can

App. 137
you remind me, was claim construction at issue on appeal?
MR. SHAH: In the prior – in the first appeal,
yes, Your Honor, it was.
JUDGE MOORE: And did we actually resolve any of those questions of claim construction?
MR. SHAH: No, Your Honor. You just remanded on that narrow issue. So those are –
JUDGE MOORE:
MR. SHAH:
before you now.

Okay.

We would agree that those are

JUDGE MOORE: But the claim construction is now before us. And one thing that has happened
between the time when the Board issued its claim construction and now when we are reviewing it, is the patents have expired. Doesn’t that de facto push us into
Phillips territory?
MR. SHAH:

So, Your Honor certain –

JUDGE MOORE: So I want to (inaudible)
[30] forget about whether the Board used Phillips or
not.
MR. SHAH:

Sure. Sure.

JUDGE MOORE: Forget about whether the
Board was proper with regard to the scope of the reman. Aren’t we, our Court, now clearly in Phillips territory in light of our Court’s precedent?

App. 138
MR. SHAH: Your Honor, yes. This Court’s
precedent that seem to indicate that it is applying Phillips on there. I think there are distinctions to be drawn
here just because of the unique procedural posture of
this case and that if it had been decided on the merits
the first time it was here, in that first opinion before
the expiration, it would have been BRI. But for that
kind of narrow remand on the procedural issue, which
really didn’t change anything because it came back up
finding that testimony consistent, we are now back
here in that posture.
So I think there are distinctions to be drawn just
based on the unique procedural [31] posture. It’s not
implicating some of the policy interest that underlie
the switch from BRI to Phillips. The other side has
never tried to amend, even though you had the same
adverse constructions now for several years.
So I think there is a basis to continue to review
under BRI. But assuming this Court were to apply
Phillips, I’m happy to address why we think the result
should not change with respect to the claim constructions that are now issue – at issue on appeal.
And if you let me start there, I’m happy to start
there.
JUDGE PROST:
this is Judge Proust.
MR. SHAH:

Well, I would like you to –

(Inaudible)

JUDGE PROST: Where I would like you to
start a is, your friend’s – a theme throughout your

App. 139
friend’s argument it seemed to me was the lack of
neutrality by the Board in the way it handled various
issues in this case, making arguments not made by petitioner, it cited our [32] case in In Re: Magnum. So I
would like you to somewhere respond to those – that
seem and those arguments if you would.
MR. SHAH: Sure. Sure, Your Honor. I would
disagree with that characterization. We vigorously disputed virtually all of these issues before the PTAB.
There are 750 pages of decisions now standing this
appeal to an initial decision, then a rehearing, and
then a remand. And at each step of the – at each step
the argument changed slightly. And then we came back
with counter arguments as the arguments evolved.
There is nothing unusual about the Board looking at
all of the evidence and looking at all of the arguments
and coming to what it thought was the best decision.
We submit we made virtually all of these arguments. But to the extent the Board wanted to look at
the patents itself and the prior art itself and parse
them on its own and not just follow the experts on both
sides, of course the Board is entitled to do that. The [33]
Board wasn’t acting as an advocate in any way. It was
acting as a decision-maker just as courts do all the
time. It looks at both sides’ argument that it may have
a third way of resolving the case.
And I think it’s helpful to do this in the context of
the specific argument. I’m happy to even start with the
claim construction or the secondary considerations issue. I can start with the secondary considerations issue

App. 140
since that’s where the other side started, if it’s helpful.
And I think there is some important things to keep in
mind here based upon what happened before the
Board.
One, as Chief Judge Proust said it’s Ultratec’s burden on nexus to show, to prove nexus even if we had
not submitted any evidence to the contrary. And we did
and I will walk through that. Even if we didn’t, it’s still
their burden to show nexus and the Board can hold
them to that burden.
Now what the Board said is that they [34] failed
to show nexus on two independent grounds. The first
one is the one that Judge Moore, you mentioned, the
procedural ground. They provided, as the Board said at
page 118 – here’s what the Board said. It reviewed the
documents.
It says, Patent owner’s response contains no substantive argument. And this is on the secondary – this
is on the nexus point. Instead, Patent Owner merely
lists various common forms of secondary consideration
evidence without exposition. This does not provide sufficient analysis for us to determine whether the Patent
Owner has provided adequate evidence of secondary
consideration and a nexus between any such evidence
in the merits of the claimed invention. Thus, Patent
Owner’s broad contentions regarding secondary consideration do not demonstrate nonobviousness.
Now, if you look at what it did, when you asked the
other side, Ms. Noel, for the citations to their argument, she gave you the only citation from the last IPR,

App. 141
the ninth IPR [35] when they finally remedied that error and provided more than two pages.
In the first eight IPRs, and the Board notes this,
in the first eight IPRs, it has the same language that I
cited you in the first eight. They only made two pages
of cursory argument. She didn’t cite you those pages.
That’s JA-786 to 787 and then this corresponding cite.
For the first eight IPRs they failed to meet the substantive argument.
And if that was not enough, on rehearing, they
tried to re-issue that’s make the same argument in the
first eight IPRs and at page – appendix page A-440,
and this is of the 1998 appeal appendix. Here’s what
the Board said. So after the Board said, look, you’ve
only given us less than two pages. And by the way, their
counsel at oral argument in front of the Board said, you
are right, Your Honor, we only gave you a page and a
happy we should have done more.
Now, on rehearing they argued, well look, we cited
the declarations. And even though [36] we didn’t make
the arguments in our brief, you can read the declarations and figure it out.
Here’s what the Board said on rehearing in response to that at page A-440. And again, this is repeated through the first eight of the nine IPRs. Every
patent except claims six and eight of the 835 patent,
here’s what they say. And this is – I’m quoting from
appendix page 440.

App. 142
In its request, Patent Owner seems to suggest that
we should have reviewed and analyzed the entirety of
each of the three declarations submitted by Patent
Owner in support of its secondary consideration contention. Patent Owner merely cited each declaration in
its entirety without citing with particularity portions
of these decorations. We will not scour –
JUDGE MOORE: Yes Counsel, this is where
the 137 page thing comes up, right?
MR. SHAH: Exactly. That’s the next line. We
will not scour the 137 pages of declaration evidence
submitted by Patent Owner and generally serve as an
advocate for Patent [37] Owner. So this is where the
Board is saying we’re not going to serve as an advocate
for them, Chief Judge Proust, to get to your question
about being an advocate.
So it’s not the Board’s job to look at a page and a
half boilerplate argument about secondary considerations and then read 137 pages of declaration and try to
put together the argument that Ms. Noel has made
quite nicely here this morning about how –
JUDGE MOORE:
MR. SHAH:

Counsel?

Yeah.

JUDGE MOORE: You suggested that – and
I understand and this is very helpful as for IPRs. But
you suggested in the ninth IPR, they finally cured –
MR. SHAH:

Yeah.

App. 143
JUDGE MOORE:
ferently, in light –

Did the PTO treat it dif-

MR. SHAH: Yes, it absolutely did, Your
Honor. And that was going to be my next point. When
they finally made something more than the [38] cursory argument, and I acknowledge they did in the last
IPR. So that’s 835 patent claim, six and eight only.
Then in the final written decision corresponding to
that IPR, and that’s at the 2003 appendix, pages A-224
to 238, the Board give a 14-page response not just on
the procedural forfeiture, but actually on the merits.
And then here’s what they said on the merits. Of
course you can stop at the procedural forfeit for the
first eight IPRs. For the ninth one, when you reach the
merits, they said look, we looked at the declaration you
cited and the Ludwick declaration, which is the only
declaration that goes to nexus, what they did is they
provided a claim chart to lineup the patents claims
with the CapTel service. And those claim charts, Your
Honor, I encourage you to look at them. They are at
page – for example in the 1998 appendix, they are page
3169. They start there. They are two page claim charts
for each of the patents.
[39] Your Honors I’m sure are familiar with the
sort of claim charts, but PTAB is certainly familiar
with these sort of claim charts. They are usually
dozens, dozens of pages that go through the manuals,
the pictures, the documentation, the lineup, the experts analysis, not just including personal observation,
but going through that in detail. Here you have a

App. 144
conclusory statement in each one that says I observed
these matters here. The PTAB said that’s not enough.
And in fact, Your Honor, we provide a cite in our
brief. You can contrast that claim chart. Once they got
these adverse PTAB decisions and the further Ultratec
appeals that are not before you, what we call Ultratec
4, we provided a cite there. They did a claim chart. It’s
190 pages. These are two page claim charts conclusory.
And the reason why, Your Honor, that matters here
is because CapTel is not a monolithic service. It’s not
just one phone or [40] one product over this 10 years.
There were modifications. There were different models
use. And so is not enough to simply say based on your
observation during a visit that happened at the time of
this litigation to say that this is always encompassed
all of the claims at least not without providing documentation, going through the manuals, going through
each and every model. They don’t do it model by model.
They treat it as monolithic.
And the PTAB, and this is at 2003, appendix 229,
page 229 in the A-35 appeal where they finally made
the arguments and not just forfeited it, there the PTAB
calls them out on this and they say, look, this is not a
monolithic service. And in fact, the model 100, the first
phone that was at issue here, did not have two line service.
So there were three features that Ultratec pointed
to as the breakthrough features, the two line architecture, the revoicing, and the simultaneous delivery of
voice and text. So two [41] line architecture wasn’t

App. 145
there. So it wasn’t fact coextensive. It was both underinclusive and overinclusive.
And Judge Moore, this goes to your point. There
was in fact expert testimony by our expert, not the
PTAB, but our expert submitted a declaration, which
is a pages A-2569 to page A-2576 of the 1998 appendix.
JUDGE MOORE:
MR. SHAH:

Hey counsel?

Yeah.

JUDGE MOORE: I appreciate your very
clearly, amazing, detailed understanding of every single page of nine appendices. How about you move on to
claim construction? Because my eyes are glazing over
with all these page cites.
MR. SHAH:

Okay. Sorry, Your Honor.

Okay. To claims construction. So on Ryan, Your
Honor, I think let me start there with that claims construction. I’m happy to walk through the three claims
construction issues. On Ryan, I think it’s helpful just
to take a step back.
Ultratec’s actual claimed invention is [42] not the
software itself. It’s not claiming an invention of a voice
recognition software. It’s invention is on the relay
method of using a call agent to do real time revoicing
using commercially available speaker dependent software. That is exactly what Ryan discloses, using, in the
words of Ryan, an agent to listen to the caller and repeat the voice message using, quote, specific software

App. 146
specifically designed to recognize the voice of particular relay agents.
Now as Ultratec concedes, by the time of this patent, the speaker dependent speech recognition software that allowed one-to-one tailoring was already
there on the market. And so this is not an invention
even though they would like to try to claim it as software that only does this after-the-fact training. The invention is about real time revoicing here. And that’s
precisely what Ryan discloses.
Now, Your Honor, on the particular claims, there is
– they talk about the one agent. I think, we’ve already
made arguments in our [43] brief as to why the PTAB
did not err, and I don’t think they erred even if you apply Phillips.
But even if you have doubt, probably the easiest
way for this Court to resolve this issues is say fine,
even if you accept Ultratec’s claim construction that
their patent, despite the language that you point to
Judge Moore about talking about a voice pattern and
an accent, even if you accept arguendo that their claim
was limited to one specific agent, at page A-95, sorry to
give you another cite, but here is what the Board does.
At page A-95 of the 1998 appendix, and this is the final
written decision of the Board that I’m quoting from,
here’s what it says, it argues – it addressed to the construction and the alternative. And here’s what it found.
Moreover, we are not persuaded by Patent
Owner that a person of ordinary skill in the
art would interpret Ryan as only disclosing

App. 147
software written specifically for a group of
people.
[44] So you have a finding by the Board at page
A-95 that even under Ultratec’s claim construction,
Ryan discloses it.
And there is ample expert testimony. This is not
the Board acting as an advocate, Chief Judge Proust.
JA – again, I will give you the JA cites because that’s
where expert testimony is. Specifically on this point,
JA, and this is in the first 1998 appendix, 3557 – these
cites, by the way are all in our brief. But JA-3557
Occhiogrosso says when Ryan says particular relay
agent, that means, quote, one specific agent. Again,
there is another cite, JA-2554 in the 1998 appendix
where again, substantial evidence, the expert says yes,
this refers – Ryan discloses voice recognition trained
to one call assistant.
So the Board made the finding at A-95 that even
under Ultratec’s claim construction, Ryan discloses
that there is ample expert evidence to support that.
Our expert says exactly that. Now once you accept
that, if you [45] accept that it means one agent, then
Ultratec itself argues – this is their own reply brief at
page 12 of the reply brief. And I will just read you what
they wrote at page 12.
Indeed, CaptionCall does not contest that if this
court finds that the software must be trained to individual voices, and that’s the argument I’m saying, I’m
happy to accept for purposes of this argument that it’s
an individual voice, here is what Ultratec says, quote,

App. 148
the software must likewise be trained after development. So what Ultratec says is a logical matter. If you
agree that either the patent or Ryan discloses that it
reads on just one agent, then as a logical matter, of
course the training has to happen after the fact.
So Ryan necessarily discloses, because it reads on
one agent, it necessarily has to disclose the sort of
training that Ultratec says its claimed. So again, you
can accept Ultratec’s claim construction that the training, even though the patent doesn’t say it, the training
has to [46] happen after the fact. Even if you accept
that that, well then again, we have expert testimony –
JUDGE PROST:
MR. SHAH:

(Inaudible).

I’m sorry, Your Honor.

JUDGE PROST: Just finished your sentence
because the bell has rung.
MR. SHAH: Oh, okay. I’m sorry. I will just
give you the cites so you can see them. It’s at 1998 JA2554, 3553 to 3554, those are the cites from Ultratec’s
– or I’m sorry, our expert saying how trading happens
after the fact because this Ryan discloses speaker dependent software that has an algorithm that allows for
training after the fact.
JUDGE PROST:
MR. SHAH:

Thank you.

Thank you, Your Honor.

JUDGE PROST: Ms. Lynch, were you here
just to argue specific issues with respect to the constitutional other questions?

App. 149
MS. LYNCH:
the remand as well.
THE COURT:

Yes, Your Honor. The scope of
Okay, proceed.

[47] MS. LYNCH: This Court – may it please
the Court. This Court’s remand order was narrowly
tailored. First, the Board was to determine whether
Mr. Occhiogrosso’s testimony was inconsistent. And if
it was, the Board was then to consider the impact of
that testimony.
JUDGE MOORE: Counsel, even if we
agreed that the remand was limited, don’t – what is
the PTO’s position on what our case law demands we
apply in this current appeal as to the standard of review?
So forget about whether the agency erred by not
redoing claim construction. This is our first time reviewing claim construction, and the patents have expired. What do our precedents say the standard is we
ought to apply?
MS. LYNCH: So, Your Honor, in the Apple v.
Andre case, this Court did use the Phillips claim construction when the patent expired on appeal. But in
that case, unlike here, the parties had agreed the claim
construction would be the same under Phillips or [48]
BRI. And so respectfully, as a reviewing court we believe this court should review the Board’s BRI claim
construction to see if it’s correct.
JUDGE MOORE: And you think that’s true
anytime a patent expires between when the Board

App. 150
renders its decision and when this Court hears the appeal? You believe that we should still be reviewing under BRI even though the patent expired?
MS. LYNCH: Well yes, Your Honor. And obviously, if you review the Board’s BRI and you find
it’s incorrect, then we think the Court should apply
Phillips. But in the first instance, as a reviewing court,
we think you should review the Board’s claim construction.
JUDGE PROST: I don’t understand what
your answer just was. So you don’t – you are saying if
we look at BRI and we say they shouldn’t apply BRI?
Or would you say that the construction was erroneous
and then they get a second bite under Phillips? I’m not
clear on what you’re saying.
[49] MS. LYNCH: Right. The second, Your
Honor. So as a reviewing court, we think if the Board
used BRI and if it correctly use BRI because the patent
hadn’t expired at that time, with think that you should
review the Board’s BRI construction to determine if it’s
correct. If you find that the Board’s BRI construction is
erroneous, then going forward this Court, because the
patent has now expired, would use a Phillips construction.
JUDGE MOORE: So Ms. Lynch, I’ve got to
be honest. I thought that this was pretty well-settled
and I thought that, you know, it’s understood that if the
patents expired at any time during the process, everybody flips over to to the Phillips standard. Even in our
CFB case the Board itself recognized that and the

App. 151
Board had in front of it a patent which had been reviewed under BRI. But then the Board on rehearing
turned around and redid it under Phillips, recognizing
that if the patent expires at any time during the process, people should [50] pivot towards Phillips.
I guess I got to be honest. I thought this was such
a well-settled point. But if the PTO really believes that
we have to review BRI even when the patent expires
in between, maybe there’s a reason for a precedential
decision in this case because that just seems to me
completely inconsistent with all of our – with our approach consistently applied to a number of cases on
this general point. What are your thoughts about that?
MS. LYNCH: So we agree, Your Honor, that
at the Agency when the patent expires before it gets
to the Board, before a Board final written decision or
during re-examination, the Agency will apply BRI. But
like we said, as a reviewing court if at the time the
Agency applies BRI, it was the correct standard to apply, then we think of the first instance this Court
should review to see if that BRI analysis was correct or
not.
JUDGE LOURIE: In other words, we are
[51] reviewing the decision that was rendered?
MS. LYNCH:

Correct. Correct, Your Honor.

THE PROUST: Can I just – could I just ask
you a practical question?
MS. LYNCH:

Sure.

App. 152
JUDGE PROST: I don’t recall the dates. You
may have them offhand when the PTO switched course
and went to the Phillips standard. So I’m wondering
how much is left in the pipeline that would implicate
this question. Do you have any sense of that?
MS. LYNCH: I know it’s been a while, Your
Honor. So I don’t know how much is in the pipeline, but
I agree with you. There is less and less as time goes on.
JUDGE MOORE: But Ms. Lynch, I’m just
troubled, because when you look at the Apple v. Andrea
case, we didn’t caveat it when we entered the following
holding. This is the holding.
When this Court reviews the claim construction of
a patent claim term in an IPR [52] appeal after the
patent has expired, such as in this case, we apply the
standard establishing Phillips, not the broadest reasonable construction.
It doesn’t seem to me that we put any caveats at
all on that clear, broad statement in Apple. I mean, I’m
honestly kind of surprised. I’m not surprised that you
argued to me that your remand was limited, but I’m
generally surprised that you think it still somehow an
open question as to what standard we ought to be applying right now.
MS. LYNCH: So, Your Honor, I agree. That is
the language of Apple v. Andrea. But you know, there
is another precedential case. It’s the Celgene case and
the patent has expired before the decision; that got
brought up in the briefing. The Court didn’t address it

App. 153
in its decision that the patent had expired. But in that
case, the Court did review the Board’s BRI construction de novo.
JUDGE PROST: Can I ask – I’m sorry to
[53] prolong this, but I just have to go back to one point
you made, which I was just confused by.
MS. LYNCH:

Okay.

MS. PROUST: In a normal IPR, if we disagree with the Board’s BRI construction, is it your – is
it the office’s view that we then have to alternatively
say, well, it would have held up over Phillips? Or are
you saying that because of the posture in this case,
even though you don’t agree with us, as Judge Moore
said, that you should be applying Phillips, that there is
something different about this so you get two bites of
the apple in this circumstance and not one?
MS. LYNCH: I’m sorry, Your Honor. I’m not
sure I completely understand that question. Could you
repeat it?
JUDGE PROST: Okay. Actually, given the
interest of time, I will just drop it and conclude your
argument there. Thank you.
Ms. Noel, you have some rebuttal time.
MS. NOEL: Thank you, Your Honor. A [54]
couple of quick points. Responded to Mr. Shah, I did
give you two citations from the Patent Owner responses. One was from one of the first eight and the

App. 154
last was from the ninth. So I take issue with his characterization of what I represented to the Court.
Secondly, all this discussion about Mr. –
JUDGE MOORE: This is Judge Moore. The
first one you gave us was just really page 512. And I
agree with the Agency that that one, which is the one
that was not in the last one, is completely conclusory.
It’s amounts to literally one paragraph in which you
say nothing other than objective consideration, you
know, support nonobvious, and including commercial
success, failure of others, long felt need, – there’s no
particularity of any kind of argument on page 512.
That was why I was pushing hard to look at the
other pages, which I still don’t seem to be able to locate
in the appendix that you say [55] they’re in. But because this, page 512, even if it appeared in all of the
first date, is completely conclusory and I could not fault
the PTO for its position.
MS. NOEL: Your Honor, if I may address
that. We view this as a roadmap to the declarations.
And you look at the declarations, they all have headings and subheadings and they very clearly articulate
the evidence here.
Mr. Shah seemed to indicate that we cured in the
ninth IPR and that the Board then delved into the evidence and the Board came up with the same conclusions of the ninth – 13 pages. It still wasn’t enough
for them because it wasn’t the arguments and the

App. 155
response so much that they didn’t like the conclusory
nature of Mr. Ludwick’s testimony and his claim
charts.
All of that, by the way Your Honor, goes to embodiment. Embodiment is undisputed in this case. They
had two experts inspect everything about CapTel. They
haven’t come up with a single limitation, a single element that [56] is not embodied. Embodiment is not
contested.
And as this case – this Court held in Polaris, observations by Mr. Ludwick, you know, is there a headset? Do captions appear on the screen? I don’t need a
manual for that. And you can’t have a manual for the
whole system. He observed how it worked. He’d worked
in the industry for decades. And they don’t point to anything he was wrong on.
Turning to Ryan, there is a fundamental disagreement here. When you are talking about voice recognition software that is trained, it has to be to an
individual. And Mr. Occhiogrosso agreed with that. We
agree with that. The Patent Owners talked that in the
specifications. When you are talking about designing
software, you can design to the shared voice or dialect
of a group of people. That is what is in McAllister and
that’s what’s disclosed in Ryan. Thank you.
JUDGE LOURIE: Thank you. We thank
both sides and the cases are submitted.
(Off the record.)

App. 156
[57] CERTIFICATE OF TRANSCRIBER
I, Molly Bugher, do hereby certify that the foregoing transcript is a true and correct record of the
recorded proceedings; that said proceedings were transcribed to the best of my ability from the audio recording and supporting information; and that I am neither
counsel for, related to, nor employed by any of the parties to this case and have no interest, financial or otherwise, in its outcome.
/s/ Molly Bugher
Molly Bugher, CDLT-161
DATE:

May 27, 2021

